<html>
<title> - DUAL CITIZENSHIP, BIRTHRIGHT CITIZENSHIP, AND THE MEANING OF SOVEREIGNTY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
     DUAL CITIZENSHIP, BIRTHRIGHT CITIZENSHIP, AND THE MEANING OF 
                              SOVEREIGNTY

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2005

                               __________

                           Serial No. 109-63

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-690                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel

                          Art Arthur, Counsel

                         Allison Beach, Counsel

                 Luke Bellocchi, Full Committee Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 29, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Member, Subcommittee on Immigration, Border 
  Security, and Claims...........................................     2
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     5

                               WITNESSES

Dr. Stanley A. Renshon, Professor, City University of New York 
  Graduate Center
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10
Dr. John Fonte, Senior Fellow, The Hudson Institute
  Oral Testimony.................................................    33
  Prepared Statement.............................................    36
Dr. John C. Eastman, Professor, Chapman University School of Law
  Oral Testimony.................................................    57
  Prepared Statement.............................................    59
Mr. Peter Spiro, Associate Dean for Faculty Development and Dean 
  and Virginia Rusk Professor of International Law, University of 
  Georgia School of Law
  Oral Testimony.................................................    72
  Prepared Statement.............................................    74

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    93
Resolution No. 165 of the American Legion, submitted by Dr. John 
  Fonte..........................................................    95
Letter to Chairman Hostettler and National Review Article, 
  submitted by Dr. John Eastman..................................    96
Prepared Statement of the Honorable Jim Ryun, a Representative in 
  Congress from the State of Kansas..............................   103
Prepared Statement of the Honorable Nathan Deal, a Representative 
  in Congress from the State of Georgia..........................   103
Article submitted by William Buchanan............................   105


     DUAL CITIZENSHIP, BIRTHRIGHT CITIZENSHIP, AND THE MEANING OF 
                              SOVEREIGNTY

                              ----------                              


                      THURSDAY, SEPTEMBER 29, 2005

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order. Good 
afternoon.
    United States citizenship is a considerable privilege. 
Citizens may vote, carry a U.S. passport and are entitled to a 
full range of rights under the Constitution. The purpose of 
this hearing is to examine both birthright citizenship and dual 
citizenship and the effect that they have on our sovereignty as 
a Nation.
    Currently, the United States grants citizenship to nearly 
every individual born on U.S. soil. This policy--based on an 
interpretation of the 14th amendment is sometimes referred to 
as ``birthright citizenship.''
    The 14th amendment states that, ``All persons born or 
naturalized in the United States and subject to the 
jurisdiction thereof are citizens of the United States and of 
the State wherein they reside.'' It does not, however, provide 
citizenship in a blanket fashion to literally every person born 
on U.S. soil. Rather, it confers citizenship only to those 
persons ``subject to the jurisdiction'' of the United States.
    Courts have long recognized that children born to 
ambassadors and foreign diplomats do not fall under the 
jurisdiction of the United States. This raises important 
questions about whether the authors of the 14th amendment 
intended for individuals born in the U.S. to be granted 
citizenship even when the parents have little or no connection 
to the United States.
    This question is critically important in light of the Yaser 
Hamdi case. Hamdi, who was captured in Afghanistan fighting for 
the Taliban, was born in Louisiana to Saudi parents who were in 
the U.S. on temporary visas. He returned to Saudi Arabia as a 
small child and maintained little connection to the United 
States.
    Yet, because he was born on U.S. soil and considered a U.S. 
citizen, he is granted rights and benefits that a noncitizen 
combatant would not have been granted.
    Birthright citizenship is also a major issue in the context 
of illegal immigration. The Center for Immigration Studies 
estimates that 383,000 children are born each year to illegal 
alien mothers, accounting for nearly 10 percent of all births 
in the United States. Many aliens come to the United States 
illegally to give birth, knowing that their citizen children 
will be eligible for a large array of benefits, and will some 
day be able to petition on their behalf for them to become 
legal permanent residents.
    It is not clear that the authors of the 14th amendment 
intended to confer citizenship to the children of persons who 
have no clear allegiance or connection to the United States.
    In recent years there has been a trend toward obtaining 
multiple nationalities or citizenship. Because citizenship is 
largely based on notions of allegiance, it is important to 
closely examine the consequences of this growing trend, in 
particular, when a person is naturalized as a U.S. citizen, he 
or she takes an oath which says in part, ``I hereby declare on 
oath that I absolutely and entirely renounce and abjure all 
allegiance and fidelity to any foreign prince, potentate, 
state, or sovereignty of whom or which I have heretofore been a 
subject or citizen.''
    Despite the serious nature and explicit terms of the oath, 
many individuals keep their previous nationality by retaining 
and using their foreign passport, voting in foreign elections, 
running for office in a foreign country or even joining the 
armed forces of their former nation. For example, Manuel de la 
Cruz immigrated from Mexico and became a U.S. citizen in the 
1970s. Recently, he was elected to the state legislature in 
Mexico and declared loyalty to the Mexican Republic.
    Having dual nationalities certainly has its benefits. It 
eases travel by allowing individuals to avoid cumbersome visa 
requirements. But we should examine closely whether these 
conveniences outweigh the potential problems that can arise 
from conflicting loyalties. The U.S. Department of State, which 
does not formally recognize dual citizenship, aptly noted that 
``dual nationals owe allegiance to both United States and the 
foreign country.''
    In the past few years a number of nations have passed laws 
allowing its citizens to become citizens of other nations. This 
has invariably fed the trend of individuals retaining dual 
loyalties.
    In Afroyim v. Rusk the Supreme Court held that the U.S. 
Government may not revoke someone's citizenship without his or 
her consent. However, we should still examine whether there are 
ways to improve the likelihood that naturalized citizens will 
assimilate and show loyalty to the United States.
    At this time, I turn now to Members for opening statements. 
The Chair recognizes the gentleman from Texas for purposes of 
an opening statement.
    Mr. Smith. Thank you, Mr. Chairman. Let me say at the 
outset that I know you tend to discourage opening statements by 
other Members in an effort to expedite the hearing, and I have 
not sought to ask for your indulgence in many, many weeks, if 
not months. So thank you for recognizing me for an opening 
statement today.
    I have to say that I have a special interest in the subject 
at hand. When I was Chairman of this Subcommittee a number of 
years ago, we had two hearings on this particular issue which 
were very informative, just as today's hearing promises to be, 
as well. So I have had a longtime interest in the subject, and 
I very much appreciate your willingness to raise the issue 
again today.
    Let me begin my comments with a question. In what way is 
America like Barbuda, Lesotho and Tuvalu. The answer is that 
they are all countries that automatically give citizenship to 
the children of illegal immigrants. Nearly every industrialized 
country in the world requires at least one parent to be a 
citizen or legal immigrant before a child born there becomes a 
citizen. Not a single European country automatically grants 
citizenship to the children of illegal immigrant parents. Many 
other countries have repealed their U.S.-style citizenship 
practices.
    Why is birth citizenship a concern? Last year over one-half 
of all births in Los Angeles, our second largest city, were to 
illegal immigrants. One poll found that most of the women said 
that the reason they entered the U.S. illegally was because of 
automatic citizenship. Today, 42 percent of births to 
immigrants are to illegal immigrant mothers, one out of every 
ten births in the United States.
    Once an illegal immigrant gives birth in the U.S., it is 
unlikely they will ever be deported and they can then sign up 
for Federal, State and local benefit programs, courtesy of the 
America taxpayer. This granting of automatic citizenship flows 
from a misinterpretation of the 14th amendment, as the Chairman 
pointed out in his opening statement. It was drafted after the 
Civil War to guarantee that the recently freed slaves 
rightfully received full citizenship rights. When it was 
enacted in 1868, there were no illegal immigrants in the United 
States because there were no immigration laws until 1875, so 
drafters of the amendment could not have intended to benefit 
those in our country illegally.
    One law professor has referred to, ``the offense to common 
morality and common sense of conferring citizenship on children 
whose only connection to the United States is that their 
mothers crossed the border in time to give birth here.''
    Legal experts disagree as to whether a constitutional 
amendment or a Federal statute is needed to eliminate birth 
citizenship. However, there are three reasons why Congress can 
and should act. Number one, no Supreme Court case has dealt 
directly with the offspring of illegal immigrants who have 
given birth in the United States. Two, the Constitution 
expressly gives Congress the power to decide national 
immigration policies. And three, during the debate on the 14th 
amendment in 1866 the Senator who was the author said it would, 
``not, of course, include persons born in the United States who 
are foreigners.''
    Congress is long overdue in making sure the 14th amendment 
is correctly interpreted. Illegal immigration has become a 
crisis in America. Our borders are overrun. More than 12 
million people live in the United States illegally. Passing a 
law to eliminate birth citizenship would defer illegal 
immigration and reduce the burden on the taxpayer of paying for 
Government benefits that go to illegal immigrants.
    Mr. Chairman, again I look forward to the testimony today 
and thank you for recognizing me for an opening statement.
    Mr. Hostettler. I thank the gentleman from Texas. Without 
objection, all Members' statements will be made a part of the 
record.
    At this time, I would like to turn to the introduction of 
members of our panel--very distinguished panel today. First of 
all, Dr. Stanley Renshon is Professor of Political Science at 
the City University of New York and Coordinator of the Graduate 
Center's Interdisciplinary Program in the Psychology of Social 
and Political Behavior. He is also a certified psychoanalyst, 
which I believe would lead a vast majority of Americans to 
suggest that you are especially qualified to testify before 
Congress.
    Dr. Renshon has been a Visiting Scholar and Senior Fellow 
at Harvard University. He also served as a faculty member for 
New York City's ``Top 40'' program, providing executive 
training for top-level city officials. He has published 12 
books and is the author of many articles and essays on 
Presidential politics, leadership and political psychology. He 
has appeared a number of times on national and international 
television and radio shows.
    Dr. Renshon received his Ph.D. in Political Science at the 
University of Pennsylvania, was a Postdoctoral Fellow at Yale 
University, and completed his graduate work in clinical 
psychology at Long Island University.
    Dr. John Fonte joined the Hudson Institute in March, 1999 
as Senior Fellow and Director of the Center for American Common 
Culture. Dr. Fonte has previously been a Visiting Scholar at 
the American Enterprise Institute and served as Senior 
Researcher at the U.S. Department of Education. He is currently 
on the board of the American Council for Trustees and Alumni.
    He has written numerous articles and essays appearing in 
national and international newspapers, journals and magazines, 
and has co-edited a book. His ideas on democratic sovereignty 
and international law were cited in the New York Times 
Magazine's ``Year in Ideas'' as among the most noteworthy of 
2004. Dr. Fonte received his Ph.D. in World History from the 
University of Chicago and B.A. and M.A. in History from the 
University of Arizona.
    Dr. John Eastman is a Professor of Law at the Chapman 
University School of Law and he also serves as Director of the 
Claremont Institute's Center for Constitutional Jurisprudence. 
Prior to joining Chapman University's Law School he served as 
Law Clerk to Associate Justice Clarence Thomas at the U.S. 
Supreme Court and to Judge Michael Luttig at the U.S. Court of 
Appeals for the Fourth Circuit. His past experience includes 
practicing law at the national law firm, Kirkland & Ellis, and 
serving as the Director of Congressional and Public Affairs at 
the U.S. Commission on Civil Rights during the Reagan 
administration. He was the 1990 Republican nominee for Congress 
in California's 34th district.
    He earned his J.D. from the University of Chicago Law 
School, where he graduated with high honors. He holds a Ph.D. 
and M.A. in Government from the Claremont Graduate School. Dr. 
Eastman completed his B.A. in Politics and Economics at the 
University of Dallas and recently has served on the panel for 
the Claremont Institute with less qualified members of that 
panel. We appreciate that.
    Peter Spiro is Associate Dean for Faculty Development at 
the University of Georgia School of Law and also serves as the 
Dean and Virginia Rusk Professor of International Law. Mr. 
Spiro's experience in academia includes 10 years at Hofstra 
University's School of Law as Tenured Professor and Associate 
Dean. His articles and contributions have been published in 
several law reviews and major publications, and he is a 
frequent speaker in academic and policy forums.
    Mr. Spiro previously served as International Affairs Fellow 
at the Council on Foreign Relations. Mr. Spiro is also a former 
Law Clerk to Justice David Souter of the U.S. Supreme Court and 
has worked in various positions at the National Security 
Council, U.S. Department of State and the Carnegie Endowment 
for International Peace.
    He earned his law degree from the University of Virginia 
School of Law and his Bachelor's degree, magna cum laude, from 
Harvard College.
    At this time, will the members of the panel please rise to 
take the oath?
    [Witnesses sworn.]
    Mr. Hostettler. You may be seated.
    And let the record reflect that the witnesses answered in 
the affirmative.
    At this time, before we take testimony from the panel, I 
now yield to the gentlelady from Texas, the Ranking Member, for 
purposes of an opening statement.
    Ms. Jackson Lee. Thank you very much Mr. Chairman, thank 
you for your indulgence.
    We were held up in a meeting that proceeded over the 2 
o'clock hour, but I do want to ask unanimous consent that my 
statement, in its entirety, be admitted into the record.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. Then I would like to just offer these few 
thoughts as I listen to very informed and, I hope, instructive 
witnesses. This is an interesting topic to take up at this time 
in the backdrop of so many large issues that we must confront 
here in America. But I do believe in what we call here in this 
Congress the regular order, which means that we must proceed 
deliberatively to assess a number of issues.
    As I listen to the witnesses, let me reflect and remind you 
that even though we've had Hurricane Katrina and Rita, we also 
have a broken immigration system. Might I also say that in 
times of devastation and tragedy, this Congress has risen to 
the occasion. Chairman Sensenbrenner and Ranking Member 
Conyers, the Chairman of this Committee and myself, along with 
other Members did pass what we call an Immigration Hurricane 
Katrina Relief bill that took into consideration some of the 
status changes and difficulties of those who are in immigrant 
status, that might have been confronted by the horrors of 
Hurricane Katrina, and I hope, ultimately, Hurricane Rita.
    But today I think that we are in the midst of a hearing 
that brings no solution to much. We really need comprehensive 
immigration reform. We need to address the questions of 
individuals who have been here in this country, working 
taxpayers who really are owed at least an opportunity to their 
right to citizenship.
    It is interesting that we are raising a hearing about 
birthright and dual citizenship when the framers of the 
Constitution did not really define citizenship. The acquisition 
of United States citizenship by birth and by naturalizing 
depended on State laws until the enactment of the 
Naturalization Act of 1790. The Naturalization Act of 1790 
established a definition for citizenship by naturalization, but 
it did not define citizenship by birth. Isn't that interesting, 
because most everyone had at that time come from somewhere 
else?
    Interestingly enough, even through the 1800's and 1900's, 
the 20th century, we did not determine that it was a relevant 
enough question to address, when I might imagine that even 
though we would assess that most immigration was legal 
immigration, I imagine that much was not; and therefore 
individuals were born with parents who were undocumented, and 
they probably became great and wonderful contributors to the 
economy, to the society and to the intellect of this Nation.
    Prior to the Civil Rights Act of 1866 and the 14th 
amendment, African Americans were not considered citizens of 
the United States. In fact, I was less than a person at that 
time. And I reflect on that frequently in the definition of our 
history in this country. For a long period of time, we were 
what we call second-class citizens.
    So I wonder and hope that the hearing today will convince 
those who may be questioning the value of a dual citizenship 
and citizenship of those who may be undocumented, the wrong 
direction that they take this country. Dual citizenship simply 
means that an individual comes to this country and is allowed 
to keep the citizenship of their other country.
    I would wonder whether or not there is sufficient 
documentation to suggest that anyone here with a dual 
citizenship is a threat to our security, is not contributing to 
our society, or is less of an American because they happen to 
retain their citizenship in another country--maybe for family 
reasons, maybe for other legitimate reasons.
    And so this hearing today, though I do believe in regular 
order, probably is not at the high point on our list of 
priorities with all of the various needs that our country is 
now facing and particularly some of the great needs that we're 
facing with immigration reform.
    Mr. Chairman, I hope that we will look forward and be 
forward thinking and I hope that we will begin deliberation on 
a number of immigration reform bills that have been filed, 
including my Save America Comprehensive Immigration Act, H.R. 
2092, so that we can begin to look at really fixing the problem 
and have the distinguished panel coming before us with concrete 
solutions to real problems.
    I don't consider dual citizenship and the citizenship of a 
child born in the United States to undocumented parents as a 
real problem for America.
    I yield back.
    Mr. Hostettler. We thank the gentlelady.
    We will now turn to testimony from our panel. I'll remind 
our witnesses that we have a series of lights, and the time for 
those lights, until you see the red light, is about a 5-minute 
time period.
    Without objection, your full written testimony will be made 
a part of the record, and if you can contain your comments as 
close to that 2--5-minute time period, that was not Freudian, 
Dr. Renshon--if you can contain it to that 5 minutes, we would 
be most appreciative so we can get questions from the Members 
of the Committee.
    At this time, Dr. Renshon, you're recognized.

        TESTIMONY OF DR. STANLEY A. RENSHON, PROFESSOR, 
          CITY UNIVERSITY OF NEW YORK GRADUATE CENTER

    Mr. Renshon. Thank you, Mr. Chairman. Thank you very much, 
Members of the Committee. I'm deeply honored, truly, to come 
here and talk. I do so not so much as a representative or 
invitee of the majority party, but rather as an American who 
both studies and loves this country and is concerned about its 
future.
    The focus of my remarks here today is that the core issue 
facing American immigration policy is our ability to integrate 
tens of millions of new immigrants into the American national 
community. The heart and foundation of that community consists 
of our emotional attachments, a warmth and affection for, and 
appreciation of, a pride in, and a commitment and a 
responsibility toward this country's institutions, way of life, 
and fellow Americans.
    Over the past four decades our capacity to help immigrants 
and Americans to become more integrated and attached has been 
compromised by two powerful centrifugal forces. One is the 
institutionalization of the view that race or ethnicity is and 
ought to be the principal vehicle of American national 
identity. The other is the view that Americans ought to trade 
in their parochial national attachments in favor of a more 
cosmopolitan transnational identity. Our Government, it is said 
by some, should allow and even encourage this. However, I think 
this country should only do so if it wishes to encourage civic 
suicide.
    Citizenship is a legal term and refers to the rights and 
responsibilities that become attached to a certified member of 
the community. Nationality, which is what I'm talking about, is 
a psychological term and that refers to the emotional ties, 
core understandings about the world, and common experiences 
that bind Americans together. Of course, it is entirely 
possible to have the rights of a citizen, but feel little 
emotional attachment to the country that provides them. 
Citizenship, however, without emotional attachment, is the 
civic equivalent of a one-night stand.
    Traditionally, America has always bet that immigrants' 
self-interest in coming here can be leveraged over time into 
genuine attachment, and in the past, we've won that bet 
primarily because of firm expectations that immigrants would 
integrate and a concerted effort to help them do so. Today, we 
have neither.
    Multiple attachments, of course, are a fact of life. We are 
fathers to our children and children to our parents, husbands, 
professors and so on. Americans, we are all these things and 
more, but that doesn't mean that we can always avoid making 
choices about which are primary. We can't easily be observant 
Muslims and Jews at the same time, nor can we equally hold 
profound emotional attachments to several countries. Dual 
citizenship, especially when it entails the active 
participation in the political life of an immigrant or a 
citizen's foreign country of origin, leads to conflicts of 
interest, attention and, most importantly, attachment.
    Of course, immigrants have feelings regarding their 
countries of origin, but a strong psychological and civic case 
can be made that they owe and we should help them develop their 
primary focus to this country. My research suggests--and I have 
a new book coming out on it in 2 weeks, I think. My research 
suggests that 151 countries, including the United States, allow 
some form of dual citizenship. Most, with the exception of the 
United States, strongly regulate it without, however, outlawing 
it. They do so no doubt for the same reasons that lie behind 
the four policy suggestions that are in my prepared statement, 
concerns with the viability of citizen attachment in their 
national communities.
    Americans would be surprised and, I think, extremely 
disturbed to learn that it is entirely legal, and in some 
circles preferred, that American citizens vote in foreign 
elections, serve in governmental positions, take part in the 
army of foreign countries. These practices do nothing to 
advance the integration of citizens in this country.
    Allow me then two quick points before I conclude. First, 
the impact of dual citizenship falls disproportionately on the 
United States. India and Mexico, for example, allow dual 
citizenship but neither has to worry about the civic impact of 
millions of dual citizens arriving in their countries. The 
United States does. Of the over 22 million immigrants to the 
United States between 1961 and 2003, over 80 percent were from 
dual-citizenship-allowing countries. That's over 17.5 million, 
and it doesn't count the estimated 8.5 million illegal 
immigrants, 85 percent of whom come from countries that support 
dual citizenship and also doesn't take into account the 
children of both groups nor the Americans who are already here, 
who would be eligible for dual citizenship in the second, third 
or later generation.
    Second, and importantly, immigrant-sending countries have 
discovered the self-interested advantage of having large groups 
of nationals become American citizens while at the same time 
retaining strong emotional ties to their home countries. They 
do so with the direct and express expectation that these dual 
citizens will contribute ``sustained economic and political 
contributions in the name of patriotism and hometown loyalty.'' 
That's a quote, it's not my quote, and it comes from Alejandro 
Portis at Princeton, who's a very well-respected immigration 
scholar.
    Just what are these political contributions that they're 
expected to make? Let me give you one example before leaving. 
In 2001, Juan Hernandez, a former University of Texas professor 
was named as the first American to serve in a Mexican 
President's cabinet. His role was specifically to organize and 
mobilize Americans in the United States of Mexican descent. And 
what was he mobilizing them to do? Well, he actually went on 
Nightline and made it quite clear, he wants to, and I quote, 
``have them think Mexico first. I want the third generation, 
the seventh generation, I want them all to think Mexico 
first.''
    Americans, on the other hand, might well be excused if they 
wonder why one of their fellow citizens is legally entitled to 
work for a foreign government advocating that Americans put 
other countries first.
    Mr. Chairman, it's no surprise that other countries try to 
maximize their self-interest through their immigrants here. The 
real surprise is that some Americans want to help them take 
advantage of this.
    The question before us is whether we should encourage their 
success, the foreign governments' success, at the cost of our 
own civic, cultural institutions. I believe that the sensible 
answer to this, based on psychological theory, civic 
responsibility as well as the needs of our national community, 
is a very clear and direct ``no.''
    Thank you.
    Mr. Hostettler. Thank you, Dr. Renshon.
    [The prepared statement of Dr. Renshon follows:]

                Prepared Statement of Stanley A. Renshon

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Hostettler. Dr. Fonte.

          TESTIMONY OF DR. JOHN FONTE, SENIOR FELLOW, 
                      THE HUDSON INSTITUTE

    Mr. Fonte. Thank you, Chairman Hostettler. I'm John Fonte, 
Senior Fellow at the Hudson Institute. My testimony today has 
the endorsement of the Citizenship Roundtable, an alliance of 
the Hudson Institute, and the American Legion. At this year's 
convention, the American Legion adopted a resolution 
encouraging Congress to enforce the oath of renunciation and 
allegiance and to reject dual citizenship in principle and 
restrict its application in practice. I would like to introduce 
the entire resolution, No. 165.
    Mr. Hostettler. Without objection.
    [The information referred to is available in the Appendix.]
    Mr. Fonte. America has had more success assimilating 
immigrants than any other country in the history of the world 
because since the early days of the Republic, we have pursued a 
policy of patriotic assimilation. At the heart of patriotic 
assimilation is the transfer of allegiance. For more than 200 
years, immigrants have taken an oath renouncing prior 
allegiance and transferring sole political allegiance to the 
United States of America.
    The transfer of allegiance is central to America because of 
the kind of country that we are. If we were a country that did 
not receive large numbers of immigrants, this would not be as 
important in practical terms, but it is precisely because we 
are a nation of assimilated immigrants that we must be serious 
about dual allegiance.
    We are a civic, not an ethnic nation. American citizenship 
is not based on belonging to a particular ethnicity, but on 
political loyalty to American democracy. Regimes based on 
ethnicity support the doctrine of perpetual allegiance, for one 
is always a member of the ethnic nation. In 1812, Americans 
went to war against the concept of the ethnic nation and the 
doctrine of perpetual allegiance. At this time, Great Britain 
under the slogan ``Once an Englishman, always an Englishman'' 
refused to recognize the renunciation clause of our citizenship 
oath.
    Today, some immigrant sending countries appear to be closer 
to the British position in 1812 than to the American position 
of a civic nation as opposed to an ethnic nation.
    Dual allegiance violates a core American principle of 
equality of citizenship. Dual citizens are specially 
privileged, supra citizens who have voting power in more than 
one nation and special privileges like EU privileges that the 
majority of their fellow American citizens do not have.
    I recently talked to a British immigrant who had become an 
American citizen while retaining British citizenship. This 
immigrant dual citizen cast ballots in 2004 in both the U.S. 
and British elections within 5 months of each other.
    Now, most Americans instinctively recognize something is 
wrong with this situation and that it mocks our concept of 
equality of citizenship. Dual citizens exist in a political 
space beyond the U.S. Constitution. As members of foreign 
constitutional communities, they have different and, in some 
cases, competing and conflicting responsibilities, interests 
and commitments. By objective practical necessity, as well as 
moral obligation, these other responsibilities, interests and 
commitments dilute their commitment and allegiance to the 
United States of America.
    The great New Deal lawyer and Supreme Court Justice, Felix 
Frankfurter, was absolutely right when he said that voting in a 
foreign election and serving in a foreign government revealed 
``not only something less than complete and unswerving 
allegiance to the United States, but also elements of 
allegiance to another country in some measure at least 
inconsistent with American citizenship.''
    Now, it's sometimes argued even though the principle of 
retaining political loyalty to the old country is inconsistent 
with American democracy, the result is a good thing in practice 
because many immigrant dual citizens promote pro-American and 
democratic values in the elections of their birth countries. 
Now, this sounds reasonable, but it's not always the case.
    For example, dual citizen Manuel de la Cruz was elected to 
the Zacatecas legislature in Mexico as a member of the 
traditionally anti-American Democratic Revolutionary Party, the 
PRD of Mexico. If you look at the website of the California 
PRD, the political home to many naturalized American citizens, 
it contains untruths about the United States, including the 
charge that Mexican migrants live in the United States without 
human rights.
    In 2003, the California PRD contained pictures not only of 
Che Guevara, but of Lenin as well. Here is a picture of Lenin 
on the California PRD website. So much for the promotion of 
American values.
    The issue is clear. Should we continue to promote the rapid 
increase in dual allegiance, which will happen by default if no 
congressional action is taken, or should we reject dual 
allegiance in principle and practice? If enacted into law 
without changes, McCain-Kennedy would result in massive 
increases in the number of American citizens who have dual 
allegiance. This harms patriotic assimilation. This is the 
opposite of our great historical success.
    What can be done? There's plenty that can be done to 
restrict dual allegiance within the bounds of the Afroyim 
Supreme Court decision. Many acts, such as voting in a foreign 
election, can be made felonies. Exceptions for serving the 
national security interests of the United States could be made.
    The purpose of such legislation is to affirm our deepest 
principles; it's not to punish people who may be well meaning 
and following current practice. The legislation would not be 
retroactive, but simply say, from now on these are the rules. 
Legislation has been introduced today--I think at this very 
moment--by Congressman J.D. Hayworth, the Enforcement First 
Act, that will do exactly this in title 7 and restrict dual 
allegiance.
    In opposing dual allegiance, we of the Citizenship 
Roundtable stand with the Founding Fathers, including both 
Hamilton and Jefferson, those political rivals, and also 
political rivals, Theodore Roosevelt and Democratic President 
Woodrow Wilson. We stand with Justice Louis Brandeis and his 
protege, Justice Felix Frankfurter, and with the administration 
of Franklin D. Roosevelt, which said, ``Taking an active part 
in the political affairs of a foreign state by voting in the 
election of that state involves a political attachment and 
practical allegiance thereto which is inconsistent with 
continued allegiance to the United States.''
    For FDR yesterday and for Americans today this is simply 
common sense. Now is the time, during the current debate over 
immigration, for Congress to reject dual allegiance in 
principle and restrict and narrow its application in practice.
    Thank you.
    Mr. Hostettler. Thank you, Dr. Fonte.
    [The prepared statement of Dr. Fonte follows:]

                    Prepared Statement of John Fonte

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Hostettler. Dr. Eastman.

TESTIMONY OF DR. JOHN C. EASTMAN, PROFESSOR, CHAPMAN UNIVERSITY 
                         SCHOOL OF LAW

    Mr. Eastman. Chairman Hostettler, thank you for having me, 
and good to see you again.
    Before I begin my formal remarks, I can't let go 
unchallenged the incorrect statement by Representative Jackson 
Lee about the founders and their understanding of citizenship. 
African Americans in a number of States were recognized as 
citizens; and the notion that the ``three-fifths'' clause 
treats African Americans as less than whole when its purpose 
was to deny additional representation to slave owners, I think 
needs to be challenged every time that canard is made and, 
hopefully, we'll get beyond that.
    I come here to talk about this important issue, and I 
commend you for taking it up. In light of the Supreme Court's 
Hamdi case, I think now is a perfect opportunity to revisit a 
100-year-old error by the Supreme Court.
    Hamdi was born in Louisiana, as you pointed out in your 
opening remarks, to Saudi parents. This misunderstanding of the 
citizenship clause then allowed us or required us to treat him 
as a citizen. He was eventually captured, engaged in armed 
conflict against the forces of the United States because he 
never had any allegiance to the United States as we expect of 
our citizens. And this is an opportunity to revisit that.
    The Constitution's text actually has two components. It 
says ``birth on United States soil'' and ``subject to the 
jurisdiction thereof.'' The ``subject of the jurisdiction'' 
clause, as I elaborate at greater length in my written 
testimony, means complete allegiance owing, subject to 
prosecution for treason-type jurisdiction, not the mere 
territorial jurisdiction that anybody coming here visiting as a 
tourist is subject to if they exceed our speed limits on our 
highways.
    I think it's important to understand that Yaser Hamdi never 
had that more complete jurisdiction and therefore was not a 
citizen as required by the Constitution's text. Textually, the 
birth-is-enough view renders the second clause of the 
Constitution's citizenship clause entirely redundant. 
Historically, the language of the 1866 Civil Rights Act, which 
the 14th amendment was intended to constitutionalize, makes 
very clear that all persons born in the United States and not 
subject to any foreign power are declared to be citizens of the 
United States.
    The authors in the legislative history, the authors of that 
language, Senator Lyman Trumbull said, ``When we talk about 
`subject to the jurisdiction of the United States,' it means 
complete jurisdiction, not owing allegiance to anybody else.'' 
Senator Jacob Howard said that it's ``a full and complete 
jurisdiction.''
    The interpretative gloss given by Senators Trumbull and 
Howard, adopted by Congress, understood by those that ratified 
the 14th amendment, was accepted by the Supreme Court in its 
first two cases addressing the citizenship clause. In the 
Slaughter-House cases, both the majority and the dissenting 
justices in that case recognized it meant this more complete 
allegiance-owing jurisdiction.
    That was only dicta in Slaughter-House, but in the 1884 
case of Elk v. Wilkins the Supreme Court held that a claimant 
was not subject to the jurisdiction of the United States at 
birth if he was merely subject in some respect or degree, but 
completely subject to the political jurisdiction and owing it 
direct and immediate allegiance.
    Now, in 1898, the Supreme Court reversed course. And I can 
understand the sentiments of the Court for doing so. In the 
case of Wong Kim Ark, the Supreme Court dealt with a child of a 
Chinese immigrant who was here legally, permanently, but 
subject to a treaty that we had entered into with the emperor 
of China that would never recognize the ability of anyone to 
renounce their prior citizenship. However the sympathy there 
falls, we should not read that Wong Kim Ark case so broadly as 
to insist upon the Constitution setting a minimum threshold for 
conferring citizenship on anyone who happens to be born here, 
whether here permanently or temporarily, whether here legally 
or illegally, or the worst case scenario, whether here with a 
design to cause harm to the United States, to engage in armed 
conflict against United States.
    The Hamdi case, I think, makes very clear that the prospect 
of potential terrorists coming across our border and giving 
birth to children once they're here in order to specifically 
open up a Fifth Column on our shores is a very real 
possibility.
    Now, you might want to defer to the Supreme Court's 
decision and say, Congress can't do anything about it. There 
are a couple of reasons, that I'll close with, where I think 
that's not the case here.
    First, I think the decision is just simply wrong in its 
broader application, and it was therefore dicta only in its 
broader application not dealing with particulars of that case.
    But second, the Supreme Court itself has regularly 
recognized that this body has plenary power over naturalization 
policy. You don't have power to go below the floor that the 
Constitution sets, but we should not be broadly interpreting 
what the Constitution mandates in order to restrict the plenary 
power of this body of Congress to define and determine 
naturalization for this country.
    Again, Hamdi's case makes this powerful for us on the 
urgency of taking this up now. The notion that we can have dual 
allegiance, that we can expect some of our citizens to actually 
take up arms for countries that might one day be engaged in war 
against us means that now is the time to revisit this, to get 
the constitutional minimum set correctly and leave anything 
else beyond that to the policy judgment of Congress.
    Thank you, Chairman.
    Mr. Hostettler. Thank you, Dr. Eastman.
    [The prepared statement of Dr. Eastman follows:]

                 Prepared Statement of John C. Eastman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Hostettler. Mr. Spiro.

     TESTIMONY OF PETER SPIRO, ASSOCIATE DEAN FOR FACULTY 
      DEVELOPMENT AND DEAN AND VIRGINIA RUSK PROFESSOR OF 
     INTERNATIONAL LAW, UNIVERSITY OF GEORGIA SCHOOL OF LAW

    Mr. Spiro. Thank you, Mr. Chairman. Thank you for giving me 
the opportunity to testify on the subject of dual citizenship.
    Dual citizenship is, in my view, a phenomenon of 
considerable importance. The dramatic increase in the incidence 
of dual citizenship is evidence of the changing orientation of 
individuals in a transformed global order.
    Although I believe dual citizenship to be a matter of great 
importance, I do not believe that it is the appropriate target 
of legislative action. Dual citizenship is an almost entirely 
benign phenomenon. Dual citizenship poses benefits not only to 
individual Americans; in my opinion, dual citizenship 
affirmatively serves the natural interest as well.
    I would like to make three brief points in my opening 
statement before the Committee. First, it is important that we 
understand all the various sources of dual citizenship, because 
that inevitably colors our thinking on the issue. Second, I 
would like to explain why dual citizenship poses no threat to 
the national community and to rebut some of the arguments you 
have heard leveled today against the status. And finally I 
would like briefly to explain how embracing dual citizenship 
will advance our interests by advancing the entrenchment of 
democratic values on a global basis.
    From the earlier testimony, from Drs. Fonte and Renshon, 
one might get the idea that dual citizenship arises only among 
naturalized Americans who retain their homeland citizenship. 
Nothing could be further from the case; in fact, many cases of 
dual citizenship are also arising from two other contexts.
    Tens of thousands and perhaps hundreds of thousands of 
native-born Americans are now acquiring additional citizenships 
on the basis of their ancestry. These Americans largely hail 
from well-established, fully assimilated immigrant communities. 
Many thousands of native-born Americans, for instance, have 
acquired Irish citizenship on the basis of even just a single 
grandparent's roots in Ireland.
    Many other native-born Americans have similarly acquired 
Italian, Greek, British and Israeli citizenship while they 
remain Americans living in the United States. These Americans 
are seeking to solidify their ties to their ancestral homelands 
at the same time they remain good Americans in every sense of 
the term.
    Dual citizenship is not just about new immigrants from 
countries such as Mexico. It is now a deeply pervasive 
phenomenon.
    The other major source of dual citizenship about which 
we've heard nothing today results from the birth to parents of 
different nationalities, one of whom is American. In the face 
of globalization, this source of dual citizenship is also 
dramatically on the rise. In this context, dual citizenship is 
about sustaining the identities of one's own parents. To deny 
dual citizenship in such cases is to force children to choose 
between their parents' identities. Again, this phenomenon is 
increasingly pervasive and cuts across nationalities.
    It is not in any way a problem of assimilation. In these 
cases, we are talking about the children of Americans. These 
sources of dual citizenship put a different face on the 
phenomenon. As you contemplate legislative action on the 
subject, I would ask you to contemplate these dual citizens as 
well as those who acquire the status in the process of 
naturalization.
    Second, even for those who do acquire the status through 
naturalization, dual citizenship imposes none of the dangers 
asserted by the other witnesses here today. With the minor 
exception of service in senior Federal Government positions, 
dual citizenship poses no concrete harms. Of course, dual 
citizenship reflects continuing ties to a country of origin, 
but that is a part of the great American tradition of 
pluralistic identities. The citizenship tie by itself makes an 
individual no more likely to do the bidding of another 
government than the U.S. political system.
    In the era before wide acceptance of dual citizenship, 
ethnic communities have worked within the U.S. political system 
to advance the interests of their homeland, as surely all 
Members of this Committee have experienced firsthand. Irish 
Americans, Jewish Americans, Italian Americans, Armenian 
Americans, Greek Americans, Polish Americans--the list is 
almost as long as the list of the nations of the world. All of 
these American communities have historically lobbied and voted 
in ways calculated to benefit their countries of origin.
    If ``hyphenated Americans'' can undertake such political 
action without threatening our system, surely the system can 
absorb the political empowerment of ``ampersand Americans,'' 
nor would the maintenance of origin nationality retard the 
culture assimilation of new Americans. In the contemporary 
context, dual citizenship has emerged as a way of expressing 
one's continuing homeland identity. Maintaining alternate 
Italian or Irish citizenship is akin to membership in the 
Knights of Columbus or the Order of Hibernians. It has become a 
way of saying who we are.
    Finally, accepting dual citizenship advances U.S. national 
interests on a global basis. Many dual citizens will remain 
politically active in their homelands even after they become 
Americans. Through dual citizenship the United States now 
enjoys a direct voice in the politics of other countries. I do 
not mean that such individuals will crudely do the bidding of 
the United States in those countries, but such individuals as 
Americans will surely work to sustain and entrench 
constitutional democratic systems in their countries of origin. 
Having absorbed our political traditions in the process of 
becoming Americans, dual citizens will be able to put them to 
work back home. That serves our national interests in advancing 
the global cause of democracy.
    In closing, Mr. Chairman, I would like to suggest briefly 
that the politics of dual citizenship also cuts against any 
legislative action on the subject. It is remarkable how little 
opposition has surfaced in this country to dual nationality in 
the face of the quiet explosion and the number of dual 
citizens. That indeed may be explained by the fact that dual 
citizenship is increasingly commonplace. More and more 
Americans have nephews and nieces, siblings and other family 
members, friends, neighbors and coworkers who are dual citizens 
and also good Americans.
    This is not an immigration issue, this is a matter of how 
Americans, many of them native born, are living and connecting 
in a new world. The maintenance of additional citizenship ties 
is not a problem that needs fixing. I would urge you not to 
take action against those who have or would like to acquire 
dual citizenship.
    Thank you for considering my views on this subject.
    Mr. Hostettler. Thank you, Mr. Spiro.
    [The prepared statement of Mr. Spiro follows:]

                  Prepared Statement of Peter J. Spiro

    Good morning Mr. Chairman, Representative Jackson Lee, and Members 
of the Subcommittee. Thank you for the opportunity to testify before 
you today on the issues of dual and birthright citizenship.
    For the record, I am Rusk Professor of International Law at the 
University of Georgia Law School, where I teach subjects relating to 
immigration and international law. I am a former law clerk to Judge 
Stephen F. Williams on the U.S. Court of Appeals for the D.C. Circuit 
and to Justice David H. Souter of the Supreme Court of the United 
States. I have also served as an Attorney-Adviser in the Office of the 
Legal Adviser, U.S. Department of State, as well as Director for 
Democracy on the staff of the National Security Council. I was a 
recipient of a 1988-89 Open Society Institute Individual Project 
Fellowship to study the law of U.S. citizenship. I was a participant in 
the 2001-02 German Marshall Fund project on dual citizenship, and have 
written widely on issues relating to citizenship and nationality.\1\
---------------------------------------------------------------------------
    \1\ See, e.g., Questioning Barriers to Naturalization, 13 
Georgetown Immigration Law Journal 479 (1999); The Citizenship Dilemma, 
51 Stanford Law Review 597 (1999); Dual Nationality and the Meaning of 
Citizenship, 46 Emory Law Journal 1411 (1997); Political Rights and 
Dual Nationality, in Rights and Duties of Dual Nationals: Evolution and 
Prospects (David Martin & Kai Heilbroner eds., 2002); Mandated 
Membership, Diluted Identity: Citizenship, Globalization, and 
International Law, in Globalization and Citizenship (Alison Brysk & 
Gershon Shafir eds., 2003); Embracing Dual Nationality, in Dual 
Nationality, Social Rights And Federal Citizenship in the U.S. and 
Europe (Randall Hansen & Patrick Weil eds., 2002).
---------------------------------------------------------------------------
    The last fifteen years has witnessed a dramatic increase in the 
number of individuals globally who hold more than one nationality, and 
the United States has been no exception to this trend. Where dual 
citizenship was once condemned by most countries of the world, and was 
largely an anomaly insofar as it was tolerated at all, it is now 
accepted by a growing majority of states.
    There is something about dual nationality that seems to provoke a 
reflexive distaste. Some Americans might be astonished, and perhaps 
appalled, to learn of dramatic trends toward the near-complete 
toleration of dual citizenship. But that astonishment and opprobrium 
will not suffice to justify the suppression of dual nationality. Such 
disfavor is no more than an echo of a time in which dual nationality 
did pose a serious threat to the peace of nations. As that threat has 
evaporated, accepting dual nationality may now be in the affirmative 
national interest--by way of facilitating the global dispersion of 
democratic values--as well as a matter of affirming the full breadth of 
individual identity. It is, in any case, too late for the entrenchment 
of dual nationality to be reversed. Dual nationality has become a fact 
of globalization.
    It has not always been so. Nationality was once a singular 
characteristic. A defining feature of nation-states and modern 
international relations has been the exclusivity of national 
identification and the notion that individuals should have one--and 
only one--nationality. Just as the nation-states of the 19th and 20th 
centuries carved up the world's territory to the end that all was 
spoken for but none shared, so too did they try to allocate the world's 
population.
    And they had some success: Although migration has always resulted 
in some cases of dual nationality, until recently dual nationality 
remained an anomaly, a status disfavored to the point that it was 
considered immoral. The venerable American diplomat George Bancroft 
observed in 1849 that nations should ``as soon tolerate a man with two 
wives as a man with two countries; as soon bear with polygamy as that 
state of double allegiance.'' In 1915, Teddy Roosevelt derided the 
``theory'' of dual nationality as ``a self-evident absurdity.'' Dual 
nationality was thought to represent an intolerable division of the 
loyalty owed to one's country. Almost all states canceled citizenship 
upon naturalization elsewhere; until the late 1960s, U.S. law imposed a 
hair-trigger standard on dual nationals under which American 
citizenship was forfeited for so much as voting in another state of 
nationality.
    But this antipathy toward dual nationality is fast eroding, and the 
incidence of dual nationality is now growing at an explosive pace. 
Today, many are born with dual nationality, the product of binational 
parentage. Others acquire dual national status with new citizenships, 
retaining birth citizenship upon naturalization in another country. In 
both cases, states are moving to recognize, rather than to quash, the 
retention of other nationalities. Some ``sending'' states (that is, 
states with high emigration) are actually encouraging the acquisition 
of other nationalities. Mexico, the Dominican Republic, Italy, India, 
the Philippines, and Thailand are among many recent additions to the 
list of those countries allowing birth citizens to retain nationality 
when they naturalize elsewhere.
    Even in most ``receiving'' countries, including the United States, 
the quiet rise in dual nationality has attracted little controversy; 
the prospect of millions of dual Mexican-American nationals 
concentrated on the southern border, no less, has failed to provoke any 
policy initiatives for deterring dual nationality. As globalization 
fuels migration, and states no longer attempt to suppress dual 
nationality, that status is now almost commonplace. Though some still 
decry the status, these opponents have failed to attract any 
significant public attention or following.

                           ROOTS OF DISFAVOR

    To the extent that popular distaste for dual nationality can be 
elaborated into an argument, it usually hinges on the impossibility of 
divided loyalties. In the popular mind, dual nationality has been 
loosely identified with shadowy fifth columns and saboteurs.
    The historical explanation is far more prosaic. The origin of the 
norm against dual nationality had nothing to do with spies and little 
to do with loyalties; rather, it was rooted in the intractable 
challenges that dual nationals posed to the institution of diplomatic 
protection. In the old world, the rights of individuals depended 
entirely on nationality, and sovereigns could do as they pleased with 
their own. With respect to a dual national, the right of one state to 
protect its citizens from mistreatment by another ran up against the 
other state's well-established sovereign discretion over its own 
nationals.
    Disputes over the treatment of dual nationals often posed serious 
irritants in bilateral relations of the 19th and early 20th centuries. 
At one time or another, such disputes were central to U.S. relations 
with all the major European powers.
    A frequent cause of such disputes was the refusal of the 
``sending'' states of the day (including Great Britain, Italy, and the 
German principalities) to recognize the capacity of individuals to 
transfer nationality--that is, to abandon their original nationality 
and become Americans. For instance, immigrants who had naturalized in 
the U.S. were, during visits to their homeland, prosecuted for failing 
to satisfy military service obligations in their country of origin. 
U.S. diplomats would attempt to shield Americans from such imposition 
against the vigorous objections of the other country of nationality.
    Whether deserving of protection or not, dual nationals posed an 
intolerable threat to relations among states for whom warfare was often 
a viable policy option. The War of 1812 was in large part provoked by 
Great Britain's attempt to enlist U.S. citizens whose naturalization it 
did not recognize--in other words, a problem of dual nationality--and 
U.S. foreign relations compilations for the 19th and early 20th century 
are replete with high-level disputes relating to dual nationals. By way 
of a solution, the U.S. negotiated treaties (including the so-called 
Bancroft conventions of the 1860s and 1870s, negotiated with several 
German and Scandanavian countries) providing for the attribution of 
sole U.S. nationality for immigrants, with a reversion to sole original 
nationality upon permanent return to a home country. These bilateral 
arrangements found a backstop in U.S. nationality law, under which a 
variety of acts (including voting, holding office, serving in the armed 
forces, or naturalizing in another country) resulted in the automatic 
loss of American citizenship.
    Through the middle of the 20th century, dual nationality in any 
sort of active sense was thus effectively prohibited under U.S. law. 
But this regime (also adopted by a vast majority of other countries and 
not significantly softened until the last decade) had nothing really to 
do with loyalty or allegiance. In some cases, Americans holding passive 
nationality (through parentage) in Axis nations simply chose the other 
side when it came to military service, but with little complication 
(they simply lost their U.S. citizenship in the act of enlisting 
elsewhere). There appears not a single notable instance of a dual 
national having engaged in espionage--perhaps not surprisingly, as any 
real spy would be foolish to advertise the competing attachment.

                         POSSIBLE AND DESIRABLE

    If the rule against dual nationality was founded in issues of 
diplomatic protection, that foundation has been washed away. In today's 
world, of course, sovereigns cannot do as they please with their 
subjects--that's what human rights are all about. Other countries now 
protest the treatment of individuals regardless of nationality. Against 
this backdrop, dual nationals present little more of a threat to 
bilateral relations than do mono-nationals. In contrast to the 19th and 
early 20th centuries, it is today unlikely that a dual national could 
by fact of his or her status rupture diplomatic relations between 
states. Indeed, there may be some benefit to encouraging the 
maintenance of dual nationality, at the same time that accepting the 
status allows individuals to realize their complete identities.
    Objections to dual citizenship are sometimes posed in terms of the 
possibility of diluting full civic engagement in more than one country; 
in terms of the difficulty of following different cultural traditions; 
and in terms of the possibility of conflicting attachments and 
loyalties. In fact, dual citizenship poses few problems along any of 
these metrics. Indeed, accepting dual citizenship is now not only in 
the interest of many individual Americans but also in the interest of 
the nation as a whole.

                        ENGAGEMENT AND KNOWLEDGE

    First, individuals can be fully engaged and knowledgeable citizens 
of more than one country. Political and civic capacities are not a 
zero-sum proposition. All of us have associational involvements aside 
from our participation in national affairs as citizens, and it has 
never been thought that such additional memberships detract from 
citizenship. Quite the contrary. Involvement in state and local 
politics does not preclude responsible participation in national 
processes. Likewise, participating in the affairs of another country 
does not categorically preclude responsible participation in the 
affairs of this one. Of course, if one spends all one's time at work, 
or on church affairs or volunteering for the Red Cross, or on local 
matters, there may be little time left over for national politics--the 
same might hold true where a dual national concentrated his or her 
energies on the other country of nationality. But we don't cancel the 
citizenship of the Red Cross volunteer; the incapacity objection 
against dual nationality thus falls short. Dual citizens can be 
responsible participants in both countries of nationality.
    Dual citizens can also, perhaps even more clearly, remain informed 
participants in multiple polities. The communications revolution has 
settled that question. The Internet now provides easy global access to 
local media, so that even the isolated individual can stay in touch 
with homeland developments. Of course, most emigrants tend physically 
to congregate in some forum (often living in the same neighborhoods in 
their country of settlement). In practice, the channels of information 
are multiple, and sometimes almost as dense as they would be back home.

                    MAINTAINING DIFFERENT TRADITIONS

    If the question here is whether individuals can follow two 
different cultural traditions, it is beside the point. Mono-national 
Americans follow vastly different cultural traditions among themselves. 
It is not a requirement of U.S. naturalization (as it was until 
recently in Germany) that one have culturally assimilated; there is no 
shared American canon (an equivalent to Schiller, Goethe, and Wagner) 
that is essential to the American identity. Of course, one can--many 
do--continue to follow the cultural traditions of one's homeland even 
if one terminates the formal citizenship tie to that country. That, 
indeed, is a part of our national tradition.
    It would be quite another thing simultaneously to maintain 
different political traditions. One can hardly be an old-fashioned 
monarchist and a democrat at the same time. To the extent that 
citizenship is mostly about political rights (that is what marks the 
primary difference between the status of permanent residents, aliens, 
and citizens), the political traditions argument might have held sway 
against immigrants from the Sicilian village or the Lithuanian shtetl. 
But this objection has largely been overtaken by the global trend in 
favor of democratic governance. Old-fashioned monarchists have gone the 
way of the dodo bird, and understanding of basic democratic governance 
is now nearly universal. There are, of course, some old-fashioned 
dictators still around. But those who hale from such countries do not 
typically subscribe to totalitarianism. Even when they wish to retain 
their homeland citizenship, it is out of attachment to the country, not 
to the political system. Of course, most who emigrate from repressive 
political systems are doing so precisely because they oppose their 
homeland regimes. There is only one political tradition today, and dual 
nationals will be as much a part of it as their mono-national 
counterparts.

          THE POSSIBILITY OF CONFLICTING ``CORE'' ATTACHMENTS

    That leaves the most prominent contemporary objection to dual 
nationality: the specter of an electoral fifth column. As the political 
columnist and ardent dual-nationality critic Georgie Anne Geyer wrote 
of Mexico's recent acceptance of dual-nationality status (which could, 
at least in theory, create a population of several million dual 
Mexican-American citizens), it ``creates a kind of Mexican political 
lobby of newly enfranchised citizens of Mexican descent whose cultural 
allegiance would remain in Mexico.'' Similarly, the restrictionist 
Federation of Americans for Immigration Reform (FAIR) claims that the 
Mexican government is ``attempting to maintain the allegiance of a huge 
voting bloc in U.S. elections.''
    But to what end? Globalization and the end of the Cold War have 
greatly reduced the number of issues on which states suffer distinctly 
conflicting interests. On trade issues, for example, Mexican national 
interests in most cases coincides with the interests of American 
consumers (leaving aside the improbability that dual nationals would 
command significant legislative representation). In that case, can it 
be deemed somehow against the ``national'' interest to vote in a way 
calculated to benefit another country?
    Of course, the citizenship tie will hardly be determinative of 
voting behavior. Americans often vote with an eye to the interests of 
their ethnic community; indeed, that is at the core of our political 
tradition. Mexicans who naturalize as U.S. citizens and who abandon 
their Mexican nationality in the process (which used to be the case by 
operation of Mexican law) could, of course, continue to vote Mexican 
interests even in the absence of the formal link. On the other side, it 
seems vastly to overestimate the current significance of citizenship to 
assume that an individual who retains alternate nationality will 
necessarily vote accordingly. Citizens are hardly a docile herd, ready 
unthinkingly to do the bidding of their governmental masters under 
solemn oaths of loyalty. Emigrants, especially, tend not to accept the 
command of homeland rulers, and their political conduct is likely to be 
driven more by other interests than those of their alternate 
nationality.

        DUAL CITIZENSHIP IN THE INDIVIDUAL AND NATIONAL INTEREST

    Dual nationality is not only possible; it poses affirmative 
benefits. This is true whether one considers the issue as one of 
national interests or of individual rights.
    From a national interests perspective, dual citizenship presents a 
tool in solidifying the global reach of our constitutional values. A 
naturalizing alien who gives up his or her original citizenship is 
limited in the extent to which it is possible thereafter to influence 
the political processes of the homeland. But that seems 
counterproductive to the American national interest insofar as we may 
want him to exercise such influence. Naturalizing aliens are likely to 
absorb American democratic mentalities. If they maintain dual 
citizenship, they will be able to put those democratic tendencies to 
work back home. One can plausibly assert as evidence that the 
participation of dual nationals of Latin American and Caribbean 
countries resident in the United States has been a significant factor 
in successful democratic transitions. So even a traditional policy 
calculation of dual nationality points to accepting dual nationality.
    That calculation is stronger still when considered from a rights 
perspective. Nationality may be an instrument of state control, but it 
is also an important form of individual identity and free association. 
Restrictions on dual nationality thus comprise restrictions on 
identity, as are restrictions on other forms of association; denying a 
person's full identity both as American and as British or Israeli or 
Dominican is not so far from denying someone's identity as an American 
and as a member of a religion or political group or even a family. The 
last category is especially important in this context. For those born 
with dual nationality to parents of a different nationality, a rule 
against dual-national status forces the child to choose between the 
two. In the absence of any significant cost to society in the 
maintenance of dual nationality, forcing that choice--and the loss it 
may well represent to the individual--seems unjustifiable.
    Here to Stay
    And so what of such solemn terms as ``loyalty'' and ``allegiance'' 
that have tended to drape discussions of dual nationality? National 
citizenship may now resemble something akin to membership in other 
groups--religions, corporations, localities, and the innumerable other 
elements of civil society. Nationality no longer defines individual 
identities in the way that it used to, and perhaps nations can no 
longer jealously demand that their membership remain a monogamous one. 
Maintaining membership in another national community may have emerged 
to be no more threatening than maintaining membership in the Catholic 
Church, the Knights of Columbus, the Sierra Club, or Amnesty 
International.
    The deeper significance aside, it seems clear that multiple 
nationality is here to stay. U.S. law now fully tolerates the status. 
Americans who naturalize elsewhere retain their U.S. citizenship unless 
they really want to renounce it (a practice now protected under 
constitutional rulings of the U.S. Supreme Court); foreigners who 
naturalize in the U.S. may retain their original nationality, to the 
extent permitted by the country of origin (the oath of naturalization, 
under which new citizens are required to renounce absolutely allegiance 
to foreign powers, has never been enforced). Together with those born 
with dual nationality, the number of dual nationals is growing 
dramatically. It is remarkable how little opposition has surfaced in 
this country to dual nationality in the face of this quiet explosion. 
That, indeed, may be explained by the fact that dual citizenship is 
increasingly commonplace, and that more and more Americans have nephews 
and nieces, siblings and other family members, friends, neighbors and 
co-workers, who are dual citizens and also good Americans. And more 
Americans of a broadening range of national origins are themselves 
acquiring the status, not just among new immigrant groups, but 
including many among those whose Irish, Italian, Jewish, and British 
ancestors came to the United States long ago.
    Nor is there any clear mechanism available for policing against 
multiple citizenship even if the will emerged to undertake some sort of 
enforcement action. The Supreme Court's protection of the rights of 
American citizens to retain their citizenship even if they acquire an 
alternate citizenship effectively precludes legislative action against 
the status. For the United States to require the termination of 
original citizenship upon naturalization as an American would present 
an administrative nightmare, and deter the assimilation of many 
individuals who are already in our midst as permanent resident aliens. 
On the contrary, we should be welcoming new Americans even as they 
maintain their homeland ties in the great American tradition of 
pluralist identities. That, in any case, is the future we face. Thank 
you for this opportunity to present my views on this important subject.

    Mr. Hostettler. At this time we'll turn to questions by 
Members of the Subcommittee.
    Dr. Renshon, what problems are posed when an individual 
attempts to carry out the responsibilities of being a citizen 
in two countries? I would especially like for you to possibly 
answer it in the context of the example that you made in your 
testimony--I'm trying to recall it here, that you talked about 
a Juan Hernandez as being named the first American to serve in 
a Mexican President's cabinet.
    You went on to say, according to your testimony, he wants 
Mexican Americans in the United States to think, ``Mexico 
first. I want the third generation, the seventh generation, I 
want them all to think Mexico first.''
    If you could potentially elaborate on some specifics that 
you think might--issues that Mexico might be considered first 
politically and then, secondly as an aside, I guess maybe to 
answer first--and maybe you don't know the answer to this 
question--but could Mr. Hernandez have been a member of the 
President's cabinet in Mexico if he was not a citizen of 
Mexico?
    Mr. Renshon. I don't know the answer to your second 
question but let me backtrack first to the general question.
    When we talk about emotional attachments, I'm trying to get 
across the point that we're talking about a rough 
preponderance. I think John Fonte used the term complete and 
unswerving, sort of the idea of the 100 percent American. 
That's not my particular point of view.
    What I'm trying to say is that what we need are people who, 
on balance, are tilted toward their American nationality. Now 
that percentage will differ with certain people, it will differ 
over time, but what we want to do is bind people over time to 
the American political system. And I think what we do and what 
we don't do helps to solidify those attachments.
    I think when you allow people to vote in countries other 
than the United States--and, remember, when you're talking 
about voting in another country, you're not just talking about 
going and pressing a lever; we now have the phenomenon of 
governments sending their representatives to barnstorm in the 
United States to organize a campaign in the confines of the 
United States, so it's a real process which is ongoing.
    I quote in the presentation a piece by Robert Weisberg, 
who's a political scientist; and one of the things he studied, 
using the national election statistics, was that the act of 
voting itself cemented people to the political process 
regardless of whether they won or lost. Usually we think if you 
win the election, you're a happy camper. But what his research 
showed was that simply participating in an election was itself 
emotionally cementing. Well, if it's true for Americans, it's 
true for Americans doing that abroad.
    So my point is simply that we have to try in a lot of 
different ways to try to foster the attachment of Americans. In 
part, we have to keep them from doing things, and we also have 
to do certain things to help them along.
    This isn't the place to talk about integrating immigrants, 
but in my book I have a chapter on what we ought to do about 
that, and one of the things that I suggest is that we ought to 
have free English for any immigrant who wants to have it. I 
know there are many people who want to learn, and English is 
the key route to assimilation, because through that you have 
experience, through that you have jobs, through that you're a 
part of the community and you gather up the experience over 
time that helps you to be more of an American than you are what 
you used to be. It's a process.
    Mr. Hostettler. Thank you.
    Dr. Eastman, in your opinion what class of persons did the 
authors of the 14th amendment intend to include as being, 
``subject to the jurisdiction,'' of the United States? For 
example, what about the children of legal permanent residents, 
temporary visitors or tourists on tourist visas, temporary 
workers and illegal aliens.
    Mr. Eastman. Mr. Chairman, I don't think, as an original 
matter, their understanding was that it would include any of 
those classifications, that subject to the full and complete 
jurisdiction, this allegiance-owing type of jurisdiction that 
we're talking about meant that they really could have only a 
single citizenship. And the fact that they were children and 
therefore owed allegiance through their parents to a different 
sovereign, whether the parents were here legally or illegally, 
temporarily or permanently, did not alter the fact that that 
was the kind of sovereign jurisdiction that was envisioned in 
the 14th amendment.
    And it came up, in particular, in the discussions, debates 
over ratification and the drafting of the 14th amendment with 
respect to Native Americans. Even with respect to Native 
Americans, who in one sense clearly owed at least a derivative 
allegiance to the United States, their primary allegiance was 
to their tribe, and the discussion was that that was not 
sufficient for this mandatory citizenship of the Constitution. 
And I'll take up an issue on that point to show what the 
confusion about citizenship and sovereignty, what impact it can 
have in light of Native Americans.
    In California, for example, we have this great confusion 
about Indian tribes running gambl enterprises that are 
otherwise contrary to California law, and soliciting Government 
monopoly protections for that gaming by weighing in heavily in 
the State political process and then turning around and 
claiming exemption from California's campaign finance laws 
because they're a ``sovereign, independent nation'' and ought 
not be subject to those laws. It creates a distorting factor in 
our politics. That's but one minor example.
    The notion that the millions of illegal immigrants in 
California and Texas and elsewhere on our border are not going 
to have that same kind of distorting influence if we recognize 
citizenship here I think, to say that that doesn't give us any 
concrete arms, I think is to completely misunderstand the 
nature of the confusion that arises over citizenship questions.
    Mr. Hostettler. Thank you.
    The Chair recognizes the Ranking Member, Ms. Jackson Lee, 
for 5 minutes for questions.
    Ms. Jackson Lee. Thank you very much. Mr. Chairman, I'm 
contemplating what my questions will be to try to bring some 
sort of order to this line of reasoning.
    Let me first of all say that--not that it bears a great 
weight, but I happen to know Juan Hernandez and Tony Garza, two 
individuals that you cited, Mr. Renshon. Is that correct?
    Mr. Renshon. I only cited the first, not the second.
    Ms. Jackson Lee. In the article I'm looking at, I see Tony 
Garza as well.
    Mr. Renshon. I thought you meant in my talk.
    Ms. Jackson Lee. I'm reading your article and since I know 
both of them, bring it to your attention.
    Tony Garza happens to be the Ambassador from the United 
States to Mexico. I think both Juan Hernandez and Mr. Garza are 
products of U.S. schools.
    But what I wanted to raise is, can I get from Mr. Renshon 
and Mr. Fonte any concrete problems associated with dual 
citizenship beyond the sort of nebulous generic ``I don't like 
immigrants'' issue dealing with allegiance and assimilation. 
I'm sure you want to comment on sort of the adjectives that 
I've utilized, but Mr. Spiro, if you would then expand on your 
points about the whole issue of assimilation, the whole issue 
of a new immigrant who wants to just connect to the home 
country, the ancestral home, and the value.
    I don't know if--I don't want to misspeak, but I don't 
believe that President Karzai of Afghanistan has a U.S. 
citizenship, but I believe he has a dual citizenship, and I 
believe that he was trained in Western universities; it might 
have been European universities. But how beneficial has it been 
for Chairman Karzai, now President Karzai of Afghanistan--I 
happen to chair the Afghan caucus--to have that kind of 
connectedness, if you will, to Western values?
    Maybe I should say democratic principles because I wouldn't 
want to taint his leadership, and he is certainly independent. 
But he brings a whole lot to the leadership of Afghanistan with 
the understanding that he has the multiple cultures, so if you 
can expand on that, if I can ask the two gentlemen to give me 
some sense.
    As I say that to you, let me say this: Someone might 
comment--and I didn't hear your first comment; I'm putting out 
fires--but I'm not sure if you responded to the issue of 
undocumented parents and citizenship children. If you did, 
would you repeat it for me when you answer? It will give me 
some sense of your perspective on that.
    I'll just say to you gentlemen on this hearing, I start out 
by saying that I appreciate regular order, but what I would say 
to you is that I'm lacking in understanding how this makes us 
secure.
    Is this just we want to turn the clock back? We are a 
nation that has immigrants here and welcomes immigrants in a 
legal process, so I don't know how you can turn the clock back. 
I see nothing in your conversation that provides any sense of 
security or the elimination of terrorists, since Americans can 
be terrorists who are born of American parents.
    I yield to both of you for the answer originally about 
what's the crisis.
    Mr. Renshon. First, may I start by taking exception to your 
characterization of not liking immigrants. At least for me, 
nothing could be further from the truth.
    Ms. Jackson Lee. You have the right. It's a free country. 
Your presentation gives me the impression.
    Mr. Renshon. It's an erroneous impression.
    Secondly, it seems to me--let me get to the question of 
identification. Psychologically, an identification with a 
country, a national identification, allows people to weather 
the storms that they go through; it allows support for the 
country during hard times. It's in a sense like an emotional 
bank account which isn't related to a quid pro quo of what can 
you do for me lately. No government and especially no 
democratic government can survive solely on what it gives with 
regard to goodies.
    With regard to the concrete form of identification, there 
are studies that are now coming out of the attachments of 
immigrants; there are studies done of immigrant children, the 
so-called 1.5 generation, second generations, and among those 
questions the question is asked, how they identify. Do they 
identify as an American, do they identify as a hyphenated 
American, do they identify as a Mexican or an El Salvadoran or 
do they identify as Hispanic?
    Traditionally what has happened is that over time people 
have left behind their identification with their country of 
origin and adopted a hyphenated American identity. And it has 
gone so far in some cases--I am referring now to a study by 
Richard Alba, who's at the State University of New York, who 
studied European ethnic Americans; and what he found is that 
essentially, for all practical purposes, there's a European 
identify which is essentially American. Yes, they're Italian 
and they eat Italian food, and yes, they're Polish and they may 
have a sausage, but primarily they identify almost 100 percent 
or 98 percent as Americans. I don't think the same thing can be 
said empirically of the new generation of Americans that are 
coming in from abroad.
    A very large percentage of the children of immigrants, the 
1.5 generation, and even the second generation identify with a 
title which does not have ``American'' in it. And that to me--
are they running out and throwing bombs? Well, no, that is not 
the issue that I am dealing with. I am suggesting that over 
time the lack of attachment to our national culture will be a 
severe strain on our civic process and on our civic identity.
    Mr. Hostettler. Without objection, Dr. Fonte, you and Mr. 
Spiro will be able to respond to questions from the Ranking 
Member.
    Ms. Jackson Lee. I thank the gentleman for his indulgence.
    Mr. Fonte. On the first, I want to reiterate what Stan 
said. I think the whole purpose of what we are saying is 
precisely because we are a Nation of immigrants, it was 
precisely because we do want to assimilate immigrants 
patriotically into the American system that we favor continuing 
the American tradition. My father was an immigrant from Sicily 
and so I am very fond of immigrants. And it is because we are a 
Nation of immigrants that we want to continue this great 
tradition of patriotic assimilation. It is precisely because we 
are a multiethnic, multi-subcultural Nation of people from all 
over the world that loyalty to the United States should be 
paramount and that people shouldn't maintain loyalty to another 
country. If we were purely an ethnic Nation like some other 
nations it would not make that much difference, but it is 
because we are a multiethnic Nation specifically that we want 
to continue our great tradition.
    This is the position of the American Legion, the position 
of patriotic assimilation, that people who come here should be 
loyal to the United States and not loyal to any other nations.
    What problems arise is, as Professor Renshon said, if you 
have large numbers of people in the country whose primary 
loyalty is not to the United States, that is a problem for any 
democratic country.
    I did want to mention that my comment on complete and 
unwavering loyalty was a quote from Felix Frankfurter and I 
will stick with Felix Frankfurter and I will stick with the 
policies of Franklin D. Roosevelt on this anytime.
    Thank you.
    Mr. Spiro. I still did not hear an answer where there were 
concrete problems with dual citizenship. I think there is an 
assumption, particularly in Stan Renshon's remarks, that 
individuals' attachments are a zero sum quantity. I think he 
just used the term ``emotional bank account'' as if there were 
some set limit to our emotional attachments and that 
attachments to one form of association necessarily detract from 
attachments to another form.
    Now there are contexts involving conflicting belief systems 
where that is a problem. It is hard to be a Muslim and a Jew at 
the same time, and that used to be the case I believe with 
national attachments. In a world where one had the United 
States alone as a system of constitutional democracy in a world 
of monarchists and other non-democratic systems that was a 
problem. So that when John Fonte's grandfather came here it 
would have been difficult to remain loyal to both--I guess it 
was the Kingdom of Sicily at time--
    Mr. Fonte. No, the Kingdom of Italy.
    Mr. Spiro. Italy and the United States at the same time. 
Today, of course, democracy is pervasive so that problem of 
conflicting belief systems and conflicting systems of politics 
is no longer a problem, so that one can be a loyal Italian and 
a loyal American at the same time.
    Briefly on Ms. Jackson Lee's question about the example of 
Mr. Karzai in Afghanistan; American citizens have been crucial 
in facilitating transitions to democracies in new democratic 
countries. So that as Dr. Renshon includes in his paper, there 
are a long list of Americans who played critical roles in 
transition to democracy in Eastern Europe in high government 
positions, including as President of Lithuania. And even Dr. 
Renshon I believe has no objection to that activity on the part 
of dual American citizens. So that is a very concrete example 
of how dual citizenship has served our national interest in 
other systems.
    Mr. Hostettler. I thank the gentleman. The Chair now 
recognizes the gentleman from Texas.
    Mr. Smith. Thank you, Mr. Chairman. Dr. Eastman, let me 
address my first series of questions to you.
    I gather from your comments that you feel getting to what 
you or I might consider to be the correct interpretation of the 
citizenship clause of the 14th amendment, that that can be done 
by Federal statute and does not necessarily require a 
constitutional amendment. Is that accurate?
    Mr. Eastman. It is, Representative Smith.
    Mr. Smith. Of course, we know that a statute might be 
challenged but at least that holds some promise, I would guess.
    Mr. Eastman. In fact, I don't even think you need a new 
statute. The existing one tracks the language of the 14th 
amendment precisely. That person is born in the United States 
and subject to the jurisdiction thereof. You could have a 
resolution describing what you understand that to mean.
    Mr. Smith. That was my next question. If you don't need a 
statute what are the alternatives? One would be a resolution. 
That raises other questions that I hadn't thought about until 
today. Do you think the prospect of the correct interpretation 
would be enhanced or could be enhanced by an Executive Order?
    Mr. Eastman. Yes, I do. And in fact I think it would have 
been preferable in the Hamdi case itself had the Solicitor 
General not waited until the Supreme Court to challenge or to 
use the language of presumed citizen but in fact had addressed 
that question right back at the initial transfer from 
Guantanamo to Norfolk. The mere fact that Hamdi was born in 
Louisiana, even under the strict holding of Won Kim Ark doesn't 
mean he is a citizen. His parents were not here as permanent 
residents and that would be enough to distinguish that case.
    Mr. Smith. So we have Executive Order, we have Solicitor 
General opinion perhaps. Statute, resolution, we have other 
alternatives to underline what Congress' intent is, which we 
all know is probably determinative in this case.
    My next question goes to what do you think the practical 
impact of the current interpretation of the 14th amendment is? 
Do you think that increases illegal immigration? Does that act 
as a magnet for some individuals to come into the country? As I 
believe, but I wanted to hear your opinion.
    Mr. Eastman. I believe it is. I think there are many 
incentives right now that we provide for illegal immigration 
and this is a very important one. It not only provides this 
grant of citizenship to the first generation born here, but as 
Chairman Hostettler pointed out in his opening remarks, those 
citizens can turn around and have priority status for bringing 
in their parents and other relatives as citizens. It is a 
shortcut around the naturalization process that Congress has 
set up under its plenary power.
    Mr. Smith. That is what I think as well. As I pointed out, 
over half the births in Los Angeles now are to illegal alien 
parents, that says something itself, I would suspect. Another 
question is why do you think there is a trend around the world 
toward requiring at least one parent to be a citizen or legal 
immigrant in almost any civilized country before the child 
would be automatically deemed to be a citizen?
    Mr. Eastman. I think, you know, at points during the last 
century we adopted this idealistic view that war was over, that 
we had had a couple of wars to end all wars. It never seemed to 
work. But recently the spate of activity and the conflicts, 
terrorism and what have you, have demonstrated the real serious 
threat that comes from not keeping control over citizenship. A 
number of nations in Europe, for example, are dealing with this 
question with mass migrations and the notion that you cannot 
control that as a naturalization policy because people have 
automatic unilateral claims of citizenship undermines the 
notion of consent that is at the heart of any political 
community. And as those political communities start to fray at 
the edges with these unilateral rather than bilateral claims it 
is going to have an impact.
    Mr. Smith. I agree with you. Thank you, Dr. Eastman. Let me 
say that two of our witnesses a few minutes ago referred 
directly or alluded to the relatively well-known quote by Teddy 
Roosevelt along the lines that we shouldn't be considering 
ourselves hyphenated Americans, we should all be considering 
ourselves as Americans. I hope we get to the point in our 
country that we do consider ourselves as Americans first, not 
hyphenated Americans first. I think that will do a lot for our 
national unity and our sense of oneness that we look for in our 
country and our society today. I hope we get there some day.
    Thank you, Mr. Chairman and thank you all for your 
participation today.
    Mr. Hostettler. I thank the gentleman from Texas. At this 
point I would like to go to a second round of questions, if I 
have the indulgence of the members of the panel. Is everyone 
available for another 10 to 15 minutes? Thank you.
    Dr. Fonte, is it possible for Congress to take action short 
of revoking citizenship to curtail dual allegiance in 
situations where dual allegiance is not in our national 
interest?
    Mr. Fonte. Absolutely. In fact in the Perez case, there is 
a famous dissent by Earl Warren who was on the other side who 
supported the idea that Congress could not voluntary take--did 
not have the power to take someone's citizenship away but he 
did say that Congress had the power to enact legislation if it 
deemed something particularly harmful. That is why it is in the 
power of the Congress.
    In fact Congressman Hayworth has introduced a bill today 
that would penalize--the enforcement first legislation--it 
would penalize people who perform these certain acts that used 
to be expatriating, such as voting in a foreign election, 
serving in a foreign army, and so on. This is totally within 
the plenary power of Congress to do this, to pass this type of 
legislation.
    I also might want to point out that in the legislation, 
exemptions could be made for national security reasons. So if 
there is somebody who is the President of Lithuania and is an 
American citizen and for some particular reason the State 
Department wants this, there is the exemption within the 
Hayworth legislation for this. It is entirely within the power 
of Congress to act.
    I would add if Congress does not act, then dual citizenship 
and dual allegiance are simply going to multiply. So it is 
almost, at this point particularly when we are discussing the 
McCain-Kennedy and various immigration bills, it is important 
for Congress to act now at this particular time, or there will 
be a major increase in dual allegiance if nothing is done.
    Mr. Hostettler. So because we make no penalties, even if we 
deem that it is not in our national interest to allow these 
benefits to inure, that is a big reason why the explosion has 
taken place potentially, not necessarily as a result of a new 
wave of a new line of thinking but simply because it is easy to 
do and there is no penalty?
    Mr. Fonte. Partly I think that is correct, if we make the 
rules very clear. We don't want you voting in a foreign 
election, we don't want you serving in a foreign army and there 
are penalties, people will stop doing it and dual allegiance 
will become a moot point and a lot of problems that we have 
will be eliminated.
    People were saying what is the specific problem? Well, we 
do have the case of Manuel de la Cruz, who was an American 
citizen, dual citizen. He was elected to the legislature of 
Zacatecas on the PRD Party. They have a picture of Lenin here. 
They are advocating an anti-American line. He is working 
against American interests. There are others doing the same 
thing.
    That is to answer a previous question of what is some 
specific harm, but the important thing is that now is the time 
for Congress to do something about this as we are having this 
immigration debate. We are going to have millions of new 
citizens and should they be as always in the past patriotically 
assimilated and only be loyal to the United States, or should 
they have divided loyalties? That is something that Congress 
will have to decide this year.
    Mr. Hostettler. Thank you. Dr. Renshon, you bring up a lot 
of interesting points regarding the psychology of the issue, 
and something I thought of while you were speaking was the 
notion that in the past, while American citizens may have 
disagreed with their country, their government, on a particular 
issue, it was not such that they would actually be in favor of 
the position of another country or take that position or work 
toward the goals and ends or the desires of a foreign state, 
but they would simply disagree.
    But if what you are saying is true about the psychology of 
the situation, we may be seeing a phenomenon take place today 
where in fact it is that if we disagree with the United States, 
and we have dual nationality, that we in fact can choose what 
policy, what philosophy, and actually work against the will, 
the national interests of the United States in favor of the 
national interests of a foreign power. Is that not true?
    Mr. Renshon. I think that is fair to say. Look, it is a 
natural inclination when you have attachments to somebody, to 
begin their point of view, to give their point of view a little 
bit more on the scale and so forth. So it is entirely 
psychologically natural. It is natural for people coming from 
other countries to begin their process here by doing that.
    I am talking about the socialization over generations of 
multi-millions. I estimate there are at least 30 to 40 million 
dual citizens in the United States, people who can be dual 
citizens, and it is rising. And so we have never had a 
situation where we have had in absolute numbers so many people 
with multiple attachments.
    If I may just correct Professor Spiro, my friend and 
debating partner in many instances, I don't think it is a zero 
sum game. I don't think you are 100 percent American or not an 
American. I think that over time people are oriented toward the 
United States as a nationality and it is just a fact of 
psychological life that people have attachments elsewhere, 
especially when they are primary. It is not like being a trade-
off between being a professor and a father, these are 
fundamental orientations. And I am not a big believer just in 
the fact that because democracy is spreading we're therefore in 
good shape. Consider Russia as a democracy. France has a 
democracy. Would we like our citizens to be more French? I 
don't know. Personally I don't think that is true.
    So it is a real problem. May I take a moment and speak to 
another issue that is related?
    Mr. Hostettler. Without objection, for an additional minute 
if you make it brief.
    Mr. Renshon. I will. We're also in a situation where 
schools are not really socializing students to become American. 
The level of information about what America stands for, what it 
is like, its history is by every measure abysmal. And the 
consequence of that is that when you ask of citizens that they 
take care of the country, that they have a balanced 
appreciation of the country, in order to have appreciation you 
have to have knowledge of both the virtues and the faults. That 
is how you have appreciation. If you don't have any knowledge 
of the values and you only have some idea of their faults, 
there is no reservoir to fall back on.
    And so we are bringing people in through our system who are 
not being prepared emotionally to have the kind of attachment 
we might like to see. And I am all for the way--by the way, I 
am all for dual citizenship and having people who are dual 
citizens go be the president of a country. But what I object to 
is they are dual citizens and exercise their citizen 
responsibilities in two places. They come here and are trained 
in America and go to Lithuania or Bosnia, fine. That is 
perfectly fine with me. What I don't want are tens of thousands 
or hundreds of thousands of people from country X doing both at 
the same time.
    Thank you.
    Mr. Hostettler. Thank you. At this point I recognize the 
gentlewoman from Texas for purposes of questions.
    Ms. Jackson Lee. Professor Spiro, let's do a little bit of 
sparring here and take on some valid issues that have been 
raised. Frankly, let me say to Dr. Fonte, you have my 100 
percent enthusiastic support about Americans knowing about 
America, knowing about our history, understanding our values. 
And I believe our school curriculums fall short in the primary 
years and secondary years in the knowledge of American history. 
That is shame on us. I would rather be listening to a hearing 
that, though it might be out of our jurisdiction, to reorder 
the entire curriculum to make people both invested in our 
history and committed to our history and very well versed in 
it.
    But let's respond to again my singular question. I am still 
grappling with the concreteness of emotionalism and loyalty. So 
let's look at, if I might--I think this is Justice Felix 
Frankfurter's words: No man should be permitted deliberately to 
place himself in a position where his services may be claimed 
by more than one government and his allegiance is due to more 
than one.
    In the backdrop obviously this was the beginnings of the 
early migration, the movement of a number of European 
countries--citizens over to the United States and maybe there 
was concreteness then. We were still a young country if you 
will. It was around, if my history is correct, emerging World 
War I and other conflicts. But let's just try to focus what 
we're trying to get at.
    I am looking at a legislation that was dropped just today 
and we have got penalties of up to $10,000, imprisonment for 1 
year for individuals who may vote in the election of a foreign 
state of which persons were previously a subject of, running 
for elected office in a foreign state in which a person was 
previously a subject of. I guess we would haul out of office 
the President of Lithuania, as you have mentioned, and put that 
person in jail.
    Give me a concrete response to their lack of concreteness 
without any disrespect to the arguments that they have made. I 
am still grappling with what is the issue.
    And I guess let me finish on this point. I was troubled by 
the fact that in testimony that was rendered here, I believe 
Mr. Renshon's response--one of the responses--let me try to be 
clear--that said, well, we don't have a problem with those who 
are of the European vintage, except for the comment about our 
friends in France, but it is the new immigrants maybe from 
India, maybe from Mexico, Latin American countries, maybe from 
Africa. I take offense to that, and the reason why I take 
offense from that is because I have buried soldiers who are of 
that heritage who would knock down others to go and fight for 
their country. I think we could take a poll or census of 
soldiers in Iraq and Afghanistan and we would find high numbers 
of individuals who may not be dual citizenship but heritages 
come from those particular countries. So I take offense with 
the suggestion.
    Help me out with a concrete response to what I believe has 
not been concrete. Is there a danger? What danger are we 
facing? Because let's fix the danger. And is it warranted to 
have people placed in jail for some of the offenses that I just 
said to you in the legislation that was dropped today dealing 
with dual citizenship?
    Mr. Spiro. I think you are absolutely correct to put the 
statements of somebody like Felix Frankfurter into historical 
context. So that at the time that Frankfurter was writing his 
opinion in the Perez case, which John Fonte referred to, that 
may have been an appropriate perspective on dual citizenship. 
At that time it may have posed a threat to the national 
interests of the United States. It may have been a question of 
conflicting belief systems and it may have posed the danger of 
embroiling the United States in international controversies to 
allow American citizens to participate politically in other 
countries.
    That is no longer the case today. In Dr. Fonte's written 
statement there are these fascinating parallels between the 
position of the Mexican government to its communities in the 
United States today and the position of the Italian government 
to its community in the 1930's in America. Interesting 
parallels but those are completely different worlds. We ended 
up in a war with Italy in a matter of years and that obviously 
is not going to happen with Mexico today.
    I think it would be a terrible idea to impose criminal 
penalties on the exercise of dual citizenship and I think John 
is a little too sanguine to believe that everybody would lie 
down and obey the law. You would end up with prosecutions which 
I think would show the foolhardiness of such legislation.
    So, again I'm not sure what the problem is. At the same 
time that I see real benefits from an individual perspective 
and also from a national perspective----
    Ms. Jackson Lee. If I might, do you see any danger? Do you 
see us being set up, if you will, for the numbers of terrorists 
roaming through with dual citizenship? Obviously, you are not 
an expert on terrorism, but I welcome your thoughts on this.
    Mr. Spiro. It is absolutely not a security issue, and 
anybody who is thinking about undertaking a terrorist act in 
this country would be foolish to advertise the alternate 
allegiance. There is not a single prominent historical case of 
a dual citizen undertaking acts of espionage or terrorism 
against the United States.
    One last point, Dr. Renshon notes there may be as many as 
40 million dual citizens in the United States today. By way of 
concrete problems we have heard maybe three or four individual 
cases out of those 40 million that might arguably pose some 
issue of loyalty or allegiance.
    Ms. Jackson Lee. Thank you.
    Mr. Hostettler. I thank the gentlewoman. At this time we 
will move to a third round of questions if you have that time 
available to you. There are a couple of us and this is a very 
interesting subject. I would like to at this point recognize 
Dr. Fonte, who is pregnant with thought with regard to the last 
response.
    Mr. Fonte. Yes. I was--Peter was saying the situation was 
different in 1958 with Frankfurter and that we don't have those 
type of conflicts today. With the end of the Cold War we don't 
have those type of conflicts. Well, remember 9/11. Today we 
have more conflicts than ever. Questions of loyalty, conflicts 
not only between States but within States in the post-9/11 
world. Questions of loyalty, of allegiance, of what one 
believes are absolutely paramount, and we have more conflict 
than we have ever had. So we have more potential for conflicts 
and questions of dual allegiance than ever in the past.
    And I want to reiterate, the legislation we're discussing, 
which is the J.D. Hayworth legislation, specifically says that 
exemptions can be made if this serves the interests--the 
national security interests of the United States are served if 
someone takes a seat in the Mexican government or the 
government in Nigeria or the government in Finland or any place 
else. If it serves the national security interests of the 
United States, exemptions could be made. So this is not simply 
rounding up President Karzai and throwing him in jail. But 
those are the two main points that I wanted to answer.
    Mr. Hostettler. Thank you. Dr. Fonte, once again it is 
often said that we are a Nation of immigrants. This being said, 
how does dual citizenship negatively impact our unique Nation, 
one that is built on political loyalty rather than on race, 
ethnicity, or creed? And to follow on that, do you have 
information that, in fact, dual citizens'--by and large the 
preponderance of their political activity in other countries 
are in the national interests of the United States or is it in 
the national interests of the foreign country? Is their 
political activity in the United States more to the benefit of 
the United States or foreign country?
    Mr. Fonte. Well, the second question first. I don't know if 
we have any concrete data. That would be extremely interesting. 
It would cost some money, but a survey of the views of, say, 
Mexican dual citizens participating in governments, in Mexican 
politics and people in Mexico. Because many of the participants 
in California are members of the PRD, which is the anti-
American party. Others are also of course in President Fox's 
pro-American party. There are differences. I don't know of any 
survey data but it is clear there are people on both sides of 
the fence. But in either case the emphasis is the attachment 
and the time and the emotion is toward the foreign state and 
not toward the United States.
    And that is where your first question was as a Nation of 
immigrants. I think we are a Nation of immigrants, but we are a 
Nation of assimilated immigrants. We're not really a Nation of 
immigrants; we're a Nation of assimilated immigrants with 
loyalty to the United States.
    Now if we were all of one ethnic group, say all of Anglo 
descent, then everybody would know who an American was. If your 
were blond, blue eyes, you're an Anglo, you're an American. 
That is not the case. To be an American is to be loyal to the 
American political constitutional order. So we are a civic 
Nation, a Nation that is held together by civic bonds, not by 
ethnic bonds.
    As I mentioned in my written material, we had a war about 
this in 1812 with the British, who believed once an Englishman 
always an Englishman. They had an ethnic basis for citizenship. 
Germany had an ethnic basis for citizenship. You were a member 
of Das Folk, you were a member of the German people. You were a 
German citizen. Even if you were living in Argentina for 200 
years and only spoke Spanish, spoke no German, had no 
connection with German culture, could read not a word of 
German, you would still be considered under the old German 
immigration system a citizen of Germany. That was a pure ethnic 
Nation.
    I say in my paper, I am worried that the Mexican government 
is adopting the ethnic view, once a Mexican always a Mexican. 
To the seventh generation is what Hernandez said, and Mussolini 
also said to the seventh generation. That was the reference of 
the comparison.
    This is ethnic citizenship. People saying you are of this 
race and you have to stay this race and you have to stay with 
our country. That is not the way we do things in America. If we 
accept dual allegiance, we will be heading in that direction.
    Mr. Hostettler. The Chair recognizes the gentlewoman from 
Texas for purposes of questions.
    Ms. Jackson Lee. Thank you very much. I was just meeting 
with the national PTA Association who were telling me that they 
were very actively engaged in accepting children that were 
evacuated from Louisiana, Mississippi, and Alabama. Professor 
Spiro, you recall there was a debate about refugees versus 
evacuees, and it brings to mind that labeling people sometimes 
doesn't generate positive discussion.
    So I want to raise with Dr. Fonte, I want to bring 
attention to you, again I bring up the danger and the 
concreteness and maybe I missed it.
    Does the presentation that both--the three of you make also 
include denying the citizenship of children born of 
undocumented aliens, individuals here in this country? Is that 
correct, Dr. Renshon?
    Mr. Renshon. I haven't addressed that at all.
    Mr. Eastman. I have.
    Ms. Jackson Lee. Thank you, Dr. Eastman. Then let me go to 
you for concreteness. Many of us who come from a certain region 
are probably more apt to be interfacing with that population 
than not, and what I have seen is a very strong attempt of 
assimilation that has constantly been the history of this 
country, either by precedent and/or subsequently by statute, 
that if you are born in the United States you are a citizen. As 
I indicated in my opening remarks, for a long period of time we 
had nothing. So give me succinctly the danger of stigmatizing 
individuals who are born under the flag of the United States of 
America.
    Now, let me acknowledge that we have, again as I said, a 
broken immigration system which may lead people to believe that 
there is a purposeful effort of making sure children are born 
here in the United States. But putting that aside, what is the 
danger of giving to citizens their birthright of being born on 
this soil?
    And Professor Spiro, tell me how do you respond to Dr. 
Eastman once he makes this comment? I'm really trying to find 
the legislative response, if necessary, to the danger or the 
undermining of this country. I think that is why we're here, 
what are we here for. There must be some danger. There must be 
some threat to the existence of America. Dr. Eastman, what is 
it?
    Mr. Eastman. Representative Jackson Lee, I am happy to 
address that. I think there are two levels of threat, one very 
specific but one more global and principled. And the notion of 
birthright citizenship, by being born on the soil I become a 
subject of the country in which I am born, is a throwback to an 
old feudal order, that we are the king's subjects or we are the 
government's subjects, and that was repudiated in our own 
Declaration of Independence. We set up governments based on 
consent. It is a bilateral consent. You can't come here and 
claim citizenship without us agreeing to it, nor can we make 
you citizens if you don't want it. It is bilateral consent. 
This notion of consent that we have in the political regime is 
critical to our understanding of our regime of being one of 
civic duty, rights and obligations and not one of ethnic 
definition. And that, I think, is rather critical.
    What you are talking about is an entire class of people 
that have not been involved in that consent relationship, but 
have nevertheless through their parents come here and claimed 
something that we have not agreed to. That is kind of--and over 
time that radical change in our understanding of our own 
political system cannot but help to undermine the strength of 
that system.
    More specifically, in southern California we have a huge 
problem, and I suspect you have it in Texas as well, people who 
have dual nationality committing crimes, preying on illegal 
immigrant communities, which is a terrible thing, and then 
fleeing the jurisdiction to Mexico in order to avoid 
prosecution. And because they are Mexican citizens they will 
not be extradited here. It creates an opportunity to commit 
heinous crimes, cop killing crimes or preying on our immigrant 
communities, crimes with impunity, and it is made possible 
because of this notion of dual citizenship. I think that is a 
very particularized harm, if that is what you are looking for.
    Ms. Jackson Lee. Professor Spiro, can you help me with 
that, please?
    Mr. Spiro. Three brief points on the question of birthright 
citizenship. One is that although Professor Eastman is correct 
that the Supreme Court has never ruled directly on the subject, 
I think it is quite clear that the rule of birthright 
citizenship is constitutionally entrenched. I think a good 
piece of evidence of this is the Hamdi case itself, that 
notwithstanding Hamdi's tenuous connection to the United States 
as an on-the-ground matter, no one in the executive branch of 
the Government, nor on the Supreme Court--notwithstanding 
Professor Eastman's very able brief on the subject--got 
anywhere close to suggesting that he should be deprived of his 
citizenship as somebody born in the United States. So I think 
that it is quite clear that as a matter of constitutional 
practice it is entrenched as a rule.
    The second point, and this is forgotten in some of the 
discussion, is that many of these undocumented parents are very 
real members of our community. They are not--the stereotype 
here is of course is of the undocumented alien mother who 
crosses the border simply to give birth to a child here to take 
advantage of the birthright citizenship rule. In fact, many of 
these undocumented mothers have been here for many years and 
are part of the community and their children will be part of 
the community. And if we abandon the rule of birthright 
citizenship, one is talking about establishing an 
intergenerational caste, a permanently dispossessed class of 
individuals, which is really antithetical to our citizenship 
norm of equality.
    And finally this is maybe a point that also gets lost in 
the discussion. If we move away from the birthright citizenship 
rule, we're looking at an administrative disaster. Under the 
current rule it is quite simple to determine if somebody is a 
citizen of the United States. All you have to show is that the 
person was born in the United States. Imagine a regime in which 
every individual has to show the immigration status of their 
parents by way of establishing their own right to citizenship. 
Given that our immigration enforcement authorities are already 
terribly overburdened, do we want to add yet another task to 
their list of administrative responsibilities?
    Ms. Jackson Lee. Can I just--Mr. Chairman, may I just--
would you follow up on--I don't think I was fully understanding 
Dr. Eastman, though I recognize that California has its own 
unique issues. But of preying on--I don't know whether you were 
saying Hispanics, Latins, Mexicans preying on people and 
running back to Mexico. I mean if it is an isolated local 
criminal problem that I would join him in saying that we need 
to give more resources to local police and law enforcement to 
be able to arrest the criminals. Is he talking about that is 
what we expect out of undocumented parents' children, that they 
would be criminals and preying on people? Is that the broad 
thrust of what is being said here today?
    Mr. Spiro. I mean, I have to admit I'm not sure I took the 
point either that either dual citizenship or birthright 
citizenship--it would seem there is a tenuous connection 
between that and any problems of crime and problems of crime 
should be handled as problems of crime are handled, which is 
through greater resources devoted to law enforcement and not 
through citizenship rules.
    Ms. Jackson Lee. Mr. Chairman, I don't want to put this in 
the record, but let me conclude by saying we are not a 
Committee of jurisdiction dealing with treaties, but I would 
think that--and I find difficulty with some of Mexico's 
responses and other countries' responses when they harbor 
criminals and I welcome some review of that issue as to how do 
we get individuals extradited back who have perpetrated crimes. 
I think our citizens in this United States are owed that kind 
of respect and dignity.
    But I don't think that the labeling ties in. And the reason 
why I say so, unfortunately we had a statement being made this 
morning by Bill Bennett, not particularly related, but I'm just 
saying how we can get out of sorts with relating different 
comments. And I don't know what kind of statement he was trying 
to make, but he said: If you want to reduce crime, you could 
abort every black baby in this country and the crime rate would 
go down.
    You know, these kinds of statements and statements that 
suggest that these people are involved in crime are not 
constructive. But it is constructive, Dr. Eastman, for me to be 
able to work with you and talk about enforcing the extradition 
laws to make sure that we don't have that kind of abuse. But I 
don't see the relationship of this question of dual citizenship 
and undocumented children.
    So with that let me yield back and hope that we will find 
some other ways of dealing with this question. Thank you.
    Mr. Hostettler. Thank the gentlewoman. The Chair wishes to 
thank members of the panel, witnesses, for being here, for 
adding to this very important discussion. And I remind the 
Members of the Committee that all Members will have 5 
legislative days to make additions to the record.
    At this time, the business before the Subcommittee being 
completed we're adjourned.
    [Whereupon, at 3:40 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress from the State of Texas, and Ranking Member, 
        Subcommittee on Immigration, Border Security, and Claims

    The purpose of this hearing is to examine ``birthright 
citizenship'' and ``dual citizenship.'' The framers of the Constitution 
did not define ``citizenship.'' The acquisition of United States 
citizenship by birth and by naturalization depended on state laws until 
the enactment of the Naturalization Act of 1790. The Naturalization Act 
of 1790 established a definition for ``citizenship by naturalization,'' 
but it did not define ``citizenship by birth.''
    Prior to the Civil Rights Act of 1866 and the Fourteenth Amendment, 
African-Americans were not considered citizens of the United States. In 
the case of Dred Scott v. Sandford, 60 U.S. 393 (1856), the United 
States Supreme Court held that African-Americans could not be citizens 
of the United States, even if they were free. According to the Supreme 
Court, African-Americans were descended from persons brought to the 
United States as slaves, and the terms of the Constitution demonstrated 
that slaves were not considered a class of persons included in the 
political community as citizens.
    The Civil Rights Act of 1866 declared that ``all persons born in 
the United States and not subject to any foreign power, excluding 
Indians not taxed, are hereby declared to be citizens of the United 
States.'' The Fourteenth Amendment declared that ``[a]ll persons born 
or naturalized in the United States and subject to the jurisdiction 
thereof, are citizens of the United States and of the State wherein 
they reside.''
    In United States v. Wong Kim Ark, 169 U.S. 649 (1898), the Supreme 
Court held that all persons born in the United States and subject to 
its jurisdiction are citizens. The children of diplomats and the 
children of hostile occupation forces were excluded because their 
parents are not subject to the jurisdiction of the United States. Wong 
Kim Ark did not exclude the children of illegal aliens, and the basic 
holding of this decision has never been reversed.
    In recent Congresses, there have been various proposals aimed at 
excluding the children of illegal aliens and nonimmigrant aliens from 
automatic birthright citizenship. These proposals have taken the form 
of amendments to the Citizenship Clause of the Fourteenth Amendment or 
to the birthright provisions of the Immigration and Nationality Act 
(INA).
    Other proposals would limit birthright citizenship in a way that 
its proponents believe would not necessitate a constitutional 
amendment. This approach would statutorily define who is born ``subject 
to the jurisdiction'' of the United States under the Citizenship Clause 
notwithstanding the holdings in United States v. Wong Kim Ark, supra.
    I am opposed to restrictions on birthright citizenship. Among other 
things, these proposals would, for the first time since Dred Scott, 
create a class of persons who are born in American but are not 
citizens.
    Another subject of this hearing is ``dual citizenship.'' Dual 
citizenship can arise in several ways. A person may acquire dual 
citizenship by being born in the U.S., which recognizes jus soli, to 
alien parents whose country recognizes jus sanguinis, or by being born 
abroad to U.S. parents in a country that practices jus soli. A U.S. 
citizen may become a naturalized citizen of a nation that does not 
require renunciation of other allegiances, or a naturalized U.S. 
citizen may still retain citizenship in a country that does not 
recognize renunciation of its citizenship. In deference to the 
sovereignty of that other nation, the U.S. generally recognizes the 
dual citizenship.
    Some people claim that dual citizenship is a problem because it 
results in divided loyalties, particularly in the case of a military 
conflict. It is difficult, however, to assess something as personal as 
an individual's loyalties. Other people focus on conflicts regarding 
jurisdictional issues, such as diplomatic protection, and legal duties 
borne by individuals, such as military service. These may be serious 
problems in some situations, but they can be managed through such means 
as bilateral treaties. I am not convinced that there is a need to 
restrict dual citizenship. Thank you.
 Resolution No. 165 of the American Legion, submitted by Dr. John Fonte

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      Letter to Chairman Hostettler and National Review Article, 
                     submitted by Dr. John Eastman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Prepared Statement of the Honorable Jim Ryun, a Representative in 
                   Congress from the State of Kansas

    Part of America's beauty comes from her unity in the midst of 
diversity. We have been called a Nation of immigrants, but behind this 
statement is the knowledge that we one-time immigrants have become 
Americans. The Americanization process is central to creating the unity 
that is so important as we wage the War on Terrorism.
    As Tamar Jacoby, Senior Fellow at the Manhattan Institute, states, 
``The stakes could hardly be higher. One in nine Americans is an 
immigrant. Nearly one-fifth of U.S. residents speak a language other 
than English at home. The number of foreign-born Americans--33 million 
and growing--now exceeds the entire population of Canada. And in the 
wake of 9/11, with the nation as a whole thinking harder than ever 
before about what it means to be American, it couldn't be more 
important to help these newcomers find a way to fit in.''
    To successfully assimilate the millions of immigrants in the United 
States, we must ensure their allegiance to our Founding documents and 
principles and their desire to become Americans. For over 200 years, we 
have used the Oath of Allegiance and Renunciation as a gateway to 
American citizenship.
    The Oath of Renunciation and Allegiance is taken by all immigrants 
as they become citizens, and it is an important pronouncement of 
fidelity to America and her laws. In taking the Oath, immigrants are 
reminded of the seriousness of becoming an American citizen and the 
responsibilities that come with it.
    It is problematic that this important pronouncement is not 
specified by law. The Oath is merely a part of Federal regulations and 
can be changed at the whim of Government bureaucracy. In fact, on 
September 17, 2003, the Department of Homeland Security's Office of 
Citizenship and Immigration Services (CIS) proposed changing the Oath's 
language. The proposed changes would have transformed an absolute 
commitment into a conditional statement, thereby weakening the Oath and 
the meaning of American citizenship.
    Because of public outcry, the proposed changes were never 
implemented, but we should take steps to ensure that future changes 
could only be made by Americans' elected officials.
    During the last Congress, I introduced a bill to place the Oath 
into law so that only Congress would have the authority to change its 
language. Congress thought it important enough to adopt a similar 
amendment in the FY05 DHS Appropriations bill that would restrict any 
funds in the bill from being used to make changes to the Oath. This 
amendment will expire October 1, 2005, as we begin the new Fiscal Year.
    As a result, it is more important than ever to take renewed steps 
to protect the Oath. This Congress, I have introduced two bills, H.R. 
1804 and H.R. 2513, that would do just that. H.R. 1804 would simply 
place the Oath in current law, giving it the same protections as the 
Pledge of Allegiance and the National Anthem. H.R. 2513 would do this, 
as well as make amendments to the Oath, as proposed by CIS, to clarify 
the currently awkward language while retaining the historical 
significance and the five essential components of the Oath. The new 
language has been approved by various historians and groups, including 
the Citizenship Roundtable, an alliance of the American Legion and the 
Hudson Institute and former Attorney General, Edwin Meese at The 
Heritage Foundation.
    Establishing the Oath of Allegiance as the law of the land would 
remind all Americans-recent immigrants and life-long citizens alike--
that pursuing the American dream requires a full-time commitment to 
citizenship. Our new citizens should not become what Thomas Paine once 
called the ``summer soldier and the sunshine patriot'' that shrank from 
the service of his country in times of crisis. The process of 
assimilation begins with a clear understanding of what it means to be 
an American, and no immigration reform can be complete without ensuring 
that our immigrants are committed to becoming Americans.
                               __________
 Prepared Statement of the Honorable Nathan Deal, a Representative in 
                   Congress from the State of Georgia

    Mr. Chairman, thank you for holding this important hearing to 
address the critical issue of birthright citizenship. I am the original 
sponsor of H.R. 698, the ``Citizenship Reform Act'' which aims to do 
away with birthright citizenship by amending the Immigration and 
Nationality Act. Specifically my legislation would deny citizenship at 
birth to children born in the United States of parents who are not 
citizens or permanent resident aliens. The bill grants citizenship to a 
child born out of wedlock in the United States only if the mother is a 
citizen or national of the United States or an alien who is lawfully 
admitted for permanent residence and maintains her residence in the 
United States. To date my bill has 45 cosponsors and has received 
widespread support from those groups serious about reforming our 
nation's immigration laws.
    As you know, any child born in the United States is granted 
automatic American citizenship regardless of whether or not the baby's 
parents are legal residents. This is a supposed ``right'' granted by 
the Fourteenth Amendment's citizenship clause which states that ``all 
persons born or naturalized in the United States and subject to the 
jurisdiction thereof are citizens of the United States.'' The original 
intent of this clause was to guarantee citizenship to all freed slaves 
but has since become an attractive incentive for illegal immigrants.
    Some have contended my legislation is insufficient to address the 
birthright issue, as a restriction on citizenship would require a 
Constitutional amendment. I do not agree with this assessment. As Dr. 
John Eastman and numerous other outstanding legal minds have contended, 
current interpretation of the Fourteenth Amendment is not only 
misguided but also has profound consequences for the democratic 
character of our federal government. While the Supreme Court has 
addressed the issue in passing, it has never squarely dealt with the 
question of birthright citizenship as understood within the bounds of 
the Fourteenth Amendment. In the very least, my legislation would force 
such a decision--a decision which I firmly believe would be found in 
our favor.
    Beyond the legal arguments, it is important to understand the 
financial consequences of our birthright citizenship policies. An 
estimated 300,000 babies are born to illegal immigrants in this country 
each year. As we all know, these children are automatically granted 
citizenship. The cost of caring for these children is extremely high. 
For labor and delivery alone, excluding c-section deliveries and any 
pre- or post-natal care, the cost is between $1,500 and $1,800 per 
child. Under current law the government is often left no choice but to 
cover these costs. Despite the legal status of the baby's parents, the 
baby is entitled to all benefits that U.S. citizenship entails, 
including federal welfare benefits and the right to vote. When that 
child turns 21, he or she will be able to sponsor his or her parents, 
and other family members, to the United States under the family 
reunification provisions of the Immigration and Nationality Act. One 
quickly comes to realize the costs to our social infrastructure of such 
an ill-advised policy. It is my belief that in order to begin truly 
reforming our immigration and citizenship laws, we must start from the 
beginning by doing away with birthright citizenship.
    I would again like to thank the Committee for this hearing and 
strongly urge it to consider my bill, H.R. 698 as it moves forward on 
this issue.
                 Article submitted by William Buchanan

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
